<html>
<title> - VISA OVERSTAYS: CAN THEY BE ELIMINATED?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                VISA OVERSTAYS: CAN THEY BE ELIMINATED?

=======================================================================



                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 25, 2010

                               __________

                           Serial No. 111-60

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 



      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
57-458                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
William L. Owens, New York
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     2
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement.............................................     3

                               Witnesses

Mr. Rand Beers, Under Secretary, National Protection and Programs 
  Directorate, Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
Mr. John T. Morton, Assistant Secretary, U.S. Immigration and 
  Customs Enforcement, Department of Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Richard L. Skinner, Inspector General, Department of Homeland 
  Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Edward Alden, Senior Fellow, Council on Foreign Relations:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23

                                Appendix

Questions Submitted by Chairman Bennie G. Thompson of Mississippi 
  for Rand Beers, Under Secretary, National Protection and 
  Programs Directorate, Department of Homeland Security..........    57
Question Submitted by Honorable Gus M. Bilirakis of Florida for 
  Rand Beers, Under Secretary, National Protection and Programs 
  Directorate, Department of Homeland Security...................    59
Question Submitted by Honorable Paul C. Broun of Georgia for Rand 
  Beers, Under Secretary, National Protection and Programs 
  Directorate, Department of Homeland Security...................    59
Questions Submitted by Chairman Bennie G. Thompson of Mississippi 
  for John T. Morton, Assistant Secretary, U.S. Immigration and 
  Customs Enforcement, Department of Homeland Security...........    59
Question Submitted by Honorable Paul C. Broun of Georgia for John 
  T. Morton, Assistant Secretary, U.S. Immigration and Customs 
  Enforcement, Department of Homeland Security...................    61
Questions Submitted by Chairman Bennie G. Thompson of Mississippi 
  for Richard L. Skinner, Inspector General, Department of 
  Homeland Security..............................................    61
Question Submitted by Honorable Paul C. Broun of Georgia for 
  Richard L. Skinner, Inspector General, Department of Homeland 
  Security.......................................................    62
Question Submitted by Honorable Paul C. Broun of Georgia for 
  Edward Alden, Senior Fellow, Council on Foreign Relations......    62


                VISA OVERSTAYS: CAN THEY BE ELIMINATED?

                              ----------                              


                        Thursday, March 25, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                            Washington, DC.
    The committee met, pursuant to call, at 10:06 a.m., in Room 
1334, Longworth House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Sanchez, Harman, Jackson 
Lee, Cuellar, Carney, Clarke, Richardson, Pascrell, Cleaver, 
Titus, King, Smith, McCaul, Dent, Bilirakis, and Broun.
    Chairman Thompson [presiding]. The Committee on Homeland 
Security will come to order.
    We would like to thank Congressman Rahall for allowing us 
to borrow one of the Natural Resources Committee rooms. Our 
rooms are being modified. Congressman Rahall was so gracious to 
allow this to occur.
    The committee is meeting today to receive testimony on, 
``Visa Overstays: Can They be Eliminated?''
    Today's hearing expands our examination of visa security. 
This examination began, without question, about the issuance of 
a visa to the Flight 253 Christmas bomber. It will continue 
today as we examine the issue of foreign travelers who arrive 
in this country with a proper visa, but then violate the terms 
of that visa.
    Today, we are concerned about those travelers who stay 
longer than allowed under the terms of the visa. These are the 
``overstays.'' This is not a new issue. In the Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996, 
Congress required the attorney general to develop an automated 
entry-and-exit system to collect and match an immigrant's 
arrival and departure records. Such a system would allow for 
easy identification of those who remain beyond their period of 
authorized stay.
    Many are aware of the overstay issue because of media 
reports that four of the September 11 terrorists entered the 
United States on a legitimate visa, but stayed beyond the 
authorized period. After September 11, Congress again sought to 
address overstays in the Intelligence Reform and Terrorism 
Prevention Act of 2004. That act required deployment of a 
biometric entry-and-exit system.
    Many of us believe that the overstay issue would be 
addressed by the full implementation of the US-VISIT program. 
But in December 2006, the Department hinted that they were 
considering abandoning the exit portion of US-VISIT. This hint 
did not clearly indicate the abandonment. But on November 2009, 
General Accounting Office report made it clear that the US-
VISIT exit capability will not happen.
    So I think we can all safely conclude that despite spending 
at least $1.7 billion, the previous administration did not 
develop a centralized means to track overstays. The question 
now becomes whether such a system is likely in the immediate 
future. I look forward to the assessment of the witnesses.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentleman from New York, Mr. King, for an 
opening statement.
    Mr. King. Thank you very much, Mr. Chairman, and thank you 
for the hearing.
    I want to thank the witnesses in advance for their 
testimony.
    Mr. Chairman, the inability of the Federal Government to 
identify, track, and remove foreign nationals who overstay 
their visas has created a serious security vulnerability that 
has, and will continue to be, exploited by terrorists. The 9/11 
Commission reported that a fully functioning biometric entry-
and-exit system would be an essential investment in our 
National security. Yet, almost 15 years, as you mentioned, 
after Congress first passed legislation requiring an entry-exit 
system in 1996, as part of illegal-immigration reform, we still 
do not have the ability to collect biometric data on those 
exiting the country.
    There have been numerous instances in which individuals 
have overstayed or violated terms of their visas and attempted, 
or actually carried out, terrorist attacks. Of course, there 
were--a number of the 9/11 hijackers overstayed their visas, 
including, of course, Mohammed Atta, Zacarias Moussaoui, who 
violated terms of his student visa and is now serving a life 
sentence. There is also Sheik Abdel Rahman, who is serving a 
life sentence for attempting to bomb New York City landmarks in 
1990. He also overstayed his visa.
    Fully implementing the US-VISIT exit system mandated by 
Congress is one of the most effective ways to close the 
security gap that results from our inability to determine 
whether foreign visitors on temporary visas leave when they are 
required to leave. A fully functioning biometric exit system 
would provide enhanced counterterrorism capabilities by 
improving our ability to stop the increasingly sophisticated 
methods criminals and terrorists are using to obtain fraudulent 
documents that facilitate terrorist travel.
    Such a system would decrease the number of non-credible 
leads that are forwarded to ICE for investigation--leads that 
consume scarce agent time and resources, and impede the pursuit 
of more credible cases. Unfortunately, the Department of 
Homeland Security has not developed a comprehensive way forward 
for implementing US-VISIT capabilities, nor funded this effort. 
In fact, this year, the fiscal 2011 budget request completely 
eliminates funding for a comprehensive biometric exit. This is 
a sum of $22 million.
    So I look forward to the hearing. I would like to hear the 
witnesses from the Department explain the rationale for 
eliminating this funding, and also what plans they have as we 
go forward.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Chairman Thompson. Thank you very much. The other Members 
of the committee are reminded that, under committee rules, 
opening statements may be submitted for the record.
    [The statement of Hon. Richardson follows:]
            Prepared Statement of Honorable Laura Richardson
                             March 25, 2010
    Mr. Chairman, thank you for convening this hearing today on the 
Department of Homeland Security's efforts to address the homeland 
security-related concerns posed by individuals who overstay their visas 
in the United States. I thank our distinguished panel of witnesses for 
appearing before us today to share with us the work they are doing on 
this issue and their recommendations for what else can be done.
    I am a firm believer that our immigration system is broken and 
needs comprehensive reform. We need a system that will strengthen our 
National security, make hiring fair for the entire American workforce, 
treat immigrant workers with respect, and create economic growth. An 
efficient and effective visa system is a key component of our 
immigration process, and I am pleased that today this committee will 
get a chance to delve into these issues.
    One of the fundamental problems we must address in our visa system 
is the problem of ``overstay,'' when temporary aliens are legally 
admitted to the United States but fail to depart when their visas 
expire. Four of the 9/11 terrorists were visa overstays, and of the 12 
known terrorists who committed crimes between 1993 and 2001, 7 were 
visa overstays.
    It concerns me that the Office of Inspector General (OIG) report 
identified issues such as lack of staffing and lack of dedicated 
funding as potential contributors to the problems associated with visa 
overstay. Most Immigrations and Customs Enforcement (ICE) do not have 
enough dedicated Compliance Enforcement Unit (CEU) agents to 
investigate leads referred by headquarters. ICE has also failed to 
request dedicated funding for CEU activities in the last two budgets. 
If we do not make funding this program a priority, it will be difficult 
to alleviate the problem of visa overstay. I realize that addressing 
this problem has been a difficult challenge for the Department of 
Homeland Security. While it may be impossible to eliminate the problem 
of visa overstay entirely, we can certainly improve DHS's efforts to 
ensure compliance with better technology, staffing, and funding. I look 
forward to the testimony of our distinguished panel of witnesses as to 
where these improvements need to be made.
    Thank you again, Mr. Chairman, for convening this hearing. I yield 
back the balance of my time.

    Chairman Thompson. I welcome our witnesses for the hearing 
today. We will have one panel of witnesses. I must add, at this 
point, that I couldn't think of a better star panel than what 
we have before us today.
    Our first witness, Mr. Rand Beers, is the Under Secretary 
for the National Protection and Programs Directorate. Our 
second witness is Mr. John Morton, Assistant Secretary for 
Immigrations and Customs Enforcement. The third witness is Mr. 
Richard Skinner, with the Department of Homeland Security--
Inspector General. Our final witness for the panel is Mr. 
Edward Alden. Mr. Alden is the Bernard Schwartz fellow at the 
Council on Foreign Relations.
    We want to, again, thank our witnesses for being here 
today. Without objections, the witnesses' full statement will 
be inserted in the record.
    I now recognize Under Secretary Beers to summarize his 
statement for 5 minutes.

 STATEMENT OF RAND BEERS, UNDER SECRETARY, NATIONAL PROTECTION 
   AND PROGRAMS DIRECTORATE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Beers. Thank you, Chairman Thompson and Ranking Member 
King, and distinguished Members of this committee. I am pleased 
to be joined by my colleague, Assistant Secretary Morton, 
Inspector General Skinner, and Mr. Edward Alden today, to 
discuss how the Department is dealing with the challenges of 
visa overstays.
    It is no secret that identifying these overstays has been a 
challenge for the United States for decades. The 9/11 attacks 
led to a new sense of the urgency to address this problem. 
Since 2001, the Federal Government has created new systems to 
ensure that immigration officials, our frontline decision-
makers, have information that they need about foreign travelers 
at every potential interaction, from attempting to travel to 
the United States, to entering the country, to leaving the 
country, and to any immigration benefit request in between.
    Shortly after the Department was created, DHS established 
the US-VISIT program to help manage and share pre-entry, entry, 
status management and exit information about foreign travelers 
with authorized decision-makers. Although most people are 
familiar with US-VISIT's role in biometrically identifying visa 
applicants and travelers arriving at ports of entry, the 
program's behind-the-scenes work to identify visa overstays is 
less well-known, but equally important to the integrity of our 
immigration system.
    Currently, US-VISIT uses technology and trained analysts to 
provide ICE with credible leads on potential visa overstays who 
are still in the United States, and they are called in-country 
overstays, or to flag visa overstays who have subsequently left 
the United States. They are known as out-of-country overstays.
    US-VISIT uses its arrival-and-departure information system, 
known as ADIS, which integrates biographic, biometric, and 
encounter information from various systems to match arrival and 
departure records. These systems primarily include IDENT, CBP's 
TECS, USCIS's Computer-Linked Application Management System 3, 
or CLAIMS 3, and the Student and Exchange Visitor Information 
System, or SEVIS.
    If ADIS does not receive a matching departure record to an 
arrival record prior to the expiration of an individual's term 
of admission, US-VISIT investigates to determine if the person 
is truly a visa overstay who still appears to be in the United 
States. If further analysis determines that that person appears 
to be a visa overstay, and meets ICE National security 
criteria, then US-VISIT sends that overstay information to ICE 
for investigation.
    If ADIS receives a departure record matching to an arrival 
record after the individual's term of admission expires, U.S. 
investigates to determine if, in fact, that person truly 
overstayed. If addition information reviewed determines that 
the person did overstay their period of admission, then the 
individual is added to both biographic and biometric watch 
lists as a confirmed overstay, with identification of the 
number of days overstayed.
    US-VISIT's investment in building capabilities to track 
overstays is paying dividends. Last year, US-VISIT identified 
and promoted almost 17,000 out-of-country overstays to its 
watch list. This work enabled the State Department to deny 
visas to 1,065 overstays, and for CPB to intercept 1,437 
overstays trying to reenter the United States.
    In fact, for the last 3 years straight, we have seen double 
and triple-digit increases in the number of immigration 
violators intercepted because they were identified and flagged 
by US-VISIT. Also, last year, US-VISIT provided ICE with 
thousands of leads on in-country visa overstays leading to 568 
arrest of in-country visa overstays by ICE.
    We are proud of this success. But recent events, like that 
involving Hosam Smadi, remind us that we have to do more to 
identify visa overstays, and we have to do more, faster. We are 
currently looking at working to address three main challenges. 
First, we are continually at work to improve the algorithms 
used to match data in ADIS. US-VISIT is working with the 
Lawrence Livermore National Laboratory to study and improve its 
ADIS algorithms.
    Second, we are striving to perform at the same level, 
despite a constantly increasing transaction volume. Every day, 
1 million transaction records are added to ADIS. US-VISIT 
continues to make system upgrades to handle this volume and to 
ensure system availability and performance for users.
    Third, information-sharing is still not automatic in many 
cases. To address this, we plan to further automate the ADIS 
information-sharing with other immigration agencies. We will do 
this by executing data-sharing upgrades with the State 
Department, USCIS, and ICE. For State, the upgrade will 
automate a previously manual process. For USCIS, we will 
improve the ability to match unique individuals. For ICE, we 
will provide a daily extract that will be used to better 
identify unique individuals who require enforcement actions.
    As we pursue these and other upgrades, we have confidence 
that the information US-VISIT provides to ICE will be 
increasingly credible and actionable, helping them to 
effectively enforce our immigration laws.
    Chairman Thompson, Ranking Member King and Members of this 
committee, with your assistance, US-VISIT's overstay analysis 
will help DHS to continue to protect America, and to ensure the 
integrity of our immigration system. I want to thank you for 
your continued support, and look forward to addressing your 
questions.
    [The statement of Mr. Beers follows:]
                    Prepared Statement of Rand Beers
                             March 25, 2010
                              introduction
    Chairman Thompson, Ranking Member King, and distinguished Members 
of the committee, I am pleased to appear before you today to discuss 
the Department of Homeland Security's (DHS) ability to identify and 
locate potentially dangerous individuals who overstay their visas.
                               background
    The United States Visitor and Immigrant Status Indicator Technology 
(US-VISIT) Program within the National Protection and Programs 
Directorate (NPPD) expedites the identification of aliens encountered 
across the homeland security environment and serves as the Department's 
designated provider for biometric and associated biographic 
identification and analysis services for automated entry and exit. US-
VISIT maintains databases that store and share biometric information 
such as fingerprints, digital photographs, and certain biographic 
information. Authorized DHS personnel who are responsible for deciding 
eligibility for immigration benefits or admissibility into the United 
States; taking law enforcement actions; or granting access rights to 
sensitive facilities may query US-VISIT data to help them accurately 
identify the people they encounter and determine whether those people 
pose a risk to the United States. In addition to DHS components, other 
users of US-VISIT's capabilities include the Departments of State, 
Justice, and Defense; State and local law enforcement; and the 
intelligence community.
    In addition to supporting the work of its customers on the front 
lines of homeland security, US-VISIT continues to fulfill its original 
mission of implementing an integrated entry and exit data system for 
the United States. A core US-VISIT function is to provide immigration 
and border management officials with the biographic and biometric 
records of entries and exits of individual aliens, including whether an 
alien has overstayed his or her admission period. This data allows 
officials to make more informed decisions on eligibility for 
determinations on visa issuance, admission into the United States, and 
other immigration benefits.
             identifying visitors who overstay their visas
    Over the past several years, DHS has made significant strides in 
its ability to identify foreign nationals who have overstayed their 
authorized periods of admission. DHS currently has programs in place 
that use airline manifest information; border crossing records; travel 
document information enabled by the Western Hemisphere Travel 
Initiative (WHTI); and information collected under the US-VISIT program 
that allow us to record who enters and exits the country for the vast 
majority of individuals.
    US-VISIT's Data Integrity Group (DIG) uses a multilayered system 
that includes automated data searches, manual data searches, and manual 
verification by human analysts to identify aliens who remain in the 
United States beyond their authorized periods of admission. These 
aliens are commonly called visa overstays.
    The process of identifying visa overstays begins with the Arrival 
and Departure Information System (ADIS). ADIS is a database that 
matches biographic data on arrivals, departures, extensions, and 
changes or adjustments of status to identify individuals who have 
overstayed their authorized terms of admission.\1\ ADIS data is 
comprised of records from or linked to the following sources:
---------------------------------------------------------------------------
    \1\ ADIS receives arrival/departure manifests (APIS), officer-
confirmed arrivals (TECS), and changes/extensions/adjustments of status 
(CLAIMS 3 and SEVIS).
---------------------------------------------------------------------------
  <bullet> Automated Biometric Identification System (IDENT);
  <bullet> TECS (including entry and exit records from the Advanced 
        Passenger Information System and I-94s), which is operated by 
        U.S. Customs and Border Protection (CBP);
  <bullet> Computer-Linked Application Management Information System 3 
        (CLAIMS 3), which is operated by U.S. Citizenship and 
        Immigration Services (USCIS);
  <bullet> Student and Exchange Visitor Information System (SEVIS), 
        which is operated by U.S. Immigration and Customs Enforcement 
        (ICE).
    If an alien has remained beyond his or her authorized period of 
admission, the ADIS system provides an overstay status indicator. The 
overstay status indicator shows whether a person is believed to be 
inside or outside the United States. Out-of-country overstays are 
individuals who have departed the United States, but who, based on the 
arrival and departure data in ADIS, stayed beyond their authorized 
periods of admission. In-country overstays are individuals for whom we 
have no departure record and therefore who may have exceeded their 
authorized terms of admission by remaining in the United States. US-
VISIT follows separate processes for managing records identified as in-
country and out-of-country overstays.
Out-of-Country Overstay Identification and Enforcement Process
    US-VISIT manually reviews records for aliens identified by ADIS as 
out-of-country visa overstays. Manually vetting these records enables 
US-VISIT to eliminate false system-identified overstays. After manual 
review, biographic and biometric lookouts are created for confirmed 
out-of-country overstays who are no longer eligible to enter the United 
States.
    The Visa Waiver Program (VWP), established by Section 217 of the 
Immigration and Nationality Act, enables nationals of 36 participating 
countries to travel to the United States for tourism or business for 
stays of 90 days or less without obtaining a visa. Since January 12, 
2009, VWP travelers have been required to obtain an electronic 
authorization to travel after being screened against multiple law 
enforcement and security databases. VWP travelers who have exceeded the 
terms of authorized admission are no longer eligible for admission 
under the VWP. Therefore, out-of-country overstay lookouts are posted 
for VWP travelers who exceed their authorized periods of admission by 
more than 7 days.
    By statute, an individual who exceeds his or her authorized period 
of admission by 180 days is ineligible for admission for no less than 3 
years. As a result, out-of-country overstay lookouts are posted for 
visa-holding individuals when they exceed their authorized periods of 
admission by 180 days.
    The lookouts that US-VISIT creates in TECS and IDENT for these 
individuals are then available to all TECS and IDENT users, including:
  <bullet> CBP officers, when an individual attempts to enter at a port 
        of entry;
  <bullet> USCIS, when a person applies for an immigration benefit;
  <bullet> ICE, when a person is encountered in an immigration 
        enforcement context; and
  <bullet> Department of State consular officers, when an individual 
        applies overseas for a U.S. visa.
    In fiscal year 2009, US-VISIT manually reviewed 44,284 records 
identified as being out-of-country overstays. Of these, US-VISIT 
automatically created lookout records for 16,640 who were likely 
inadmissible to reenter the United States. These lookout records led to 
2,502 individuals being stopped from reentering the United States, 
including 1,437 interceptions by CBP officers at ports of entry and 
1,065 visa refusals by U.S. consular officers.
    The following data shows the number of out-of-country lookouts that 
were created for the past 4 years, along with corresponding entry or 
visa refusals, and demonstrates that US-VISIT's system is an effective 
tool in preventing out-of-country overstays from reentering the United 
States.

------------------------------------------------------------------------
                                                     Out-of-   Port/Visa
                                                     Country    Refusals
                    Fiscal Year                      Lookouts   Based on
                                                     Created    Lookouts
------------------------------------------------------------------------
2009..............................................     16,691      2,502
2008..............................................     13,276      1,441
2007..............................................      7,357        451
2006..............................................        457          5
------------------------------------------------------------------------

In-Country Overstay Identification and Enforcement
    The records of individuals whose status indicates they are possible 
in-country overstays undergo additional verification and validation, 
which includes four automated searches. The first search identifies 
those individuals who meet ICE parameters for overstay records of 
interest based on National security and intelligence criteria, and this 
search removes 89 percent of the potential overstays from further 
review. The remaining records are identified as priority in-country 
overstay records.
    Priority in-country overstay records undergo three additional 
automated searches, in sequential order:
  <bullet> The ADIS reverse search reverses the first and last names, 
        searching ADIS a second time for those instances where names 
        may be reversed from ADIS data sources.
  <bullet> The CLAIMS 3 search identifies records that match recent 
        immigration benefit applications, such as extensions of stay or 
        adjustments of status.
  <bullet> The Automated Targeting System (ATS) search identifies 
        records that match departure records that ADIS may not have.
    Historically, these three automated searches have reduced the 
number of priority in-country overstay records by an additional 40 
percent. US-VISIT analysts then manually verify and validate the 
remaining priority in-country overstay records to ensure that only 
credible leads are forwarded to ICE. The manual verification and 
validation process checks the following additional systems:
  <bullet> ADIS;
  <bullet> TECS Central Index System (CIS);
  <bullet> Consular Consolidated Database (CCD);
  <bullet> SEVIS;
  <bullet> Enforcement Case Tracking System (ENFORCE);
  <bullet> Enforcement Alien Removals Module (EARM; replaced Deportable 
        Alien Control System);
  <bullet> Refugee Asylum Parolee System (RAPS);
  <bullet> Web Image Storage and Retrieval System (Web-ISRS).
    Typically, the manual process reduces the number of priority in-
country overstay records by an additional 53 percent. Records that 
cannot be closed after manual review are transmitted to the ICE 
Compliance Enforcement Unit as unconfirmed in-country overstay leads. 
In fiscal year 2009, US-VISIT manually reviewed 37,408 priority in-
country overstay records and referred 16,379 leads to ICE.
    The following table provides the number of in-country overstay 
leads sent to ICE, with corresponding ICE arrests, over the last 4 
years.

------------------------------------------------------------------------
                                           Priority In-
                                           Country Leads    ICE Arrests
               Fiscal Year                  Referred to      Based on
                                                ICE        Referrals \1\
------------------------------------------------------------------------
2009....................................          16,379             568
2008....................................          13,343             715
2007....................................          12,372             338
2006....................................           4,155            139
------------------------------------------------------------------------
\1\ The ICE/Compliance Enforcement Unit provided the data concerning
  actual arrests based on referrals.

    Under current policy, the unconfirmed in-country overstay leads 
transmitted to ICE are not included on the biographic or biometric 
watch lists immediately. An individual is included on the biographic 
and biometric watch lists once the overstay lead is confirmed or all 
leads by ICE are exhausted.
            improvements under way in identifying overstays
Improving Information-Matching Capabilities
    Identifying visa overstays begins with matches in US-VISIT's ADIS 
system; therefore, the system's effectiveness depends on using the best 
possible matching algorithms. Efforts to identify and deploy new ADIS 
algorithms have already improved record-matching performance and will 
serve as the primary driver enabling entry to exit matching with 95 
percent accuracy. To achieve this entry-to-exit goal, US-VISIT has 
partnered with the Lawrence Livermore National Laboratory (LLNL) to 
initiate a program that independently assesses, in a scientifically 
supportable manner, the accuracy of ADIS record matching. In addition, 
LLNL will examine the effects of changes made to the current record-
matching logic and algorithms in comparison to the performance of other 
similar record-matching algorithms or currently available commercial 
off-the-shelf or Government off-the-shelf products. This detailed 
analysis of the data and matching capabilities of the system will 
provide reliable benchmarks of record-matching accuracy and is 
necessary for US-VISIT to achieve its match rate goal.
Reducing Backlogs of Un-reviewed Records
    Between fiscal year 2007 and fiscal year 2009, a backlog of 1.3 
million un-reviewed potential in-country overstay records accumulated 
because of changes in foreign traveler volume, automated algorithm 
changes, and ICE search criteria. US-VISIT expects to reduce this 
backlog by 50 percent in fiscal year 2010 through automated and manual 
matching and estimates that 47,000 leads could be forwarded to ICE's 
Compliance Enforcement Unit.
    Before fiscal year 2009, VWP overstay records constituted a 
significant portion of these un-reviewed records. However, during 
fiscal year 2009, US-VISIT prioritized review of all VWP in-country 
overstay records and has now eliminated the VWP backlog and remains 
current in reviewing these records.
           interoperability expands enforcement opportunities
    US-VISIT's IDENT database provides a centralized system for 
immigration and border management officials to check whether an alien 
is a visa overstay during numerous encounters, including when a person 
applies overseas for a visa; attempts to enter at a port of entry; 
applies for an immigration benefit; or is encountered in an immigration 
enforcement context.
    As a result, the administration of immigration benefits is more 
accurate--and there are more opportunities for enforcement--than ever 
before. Enforcement opportunities are also being significantly 
increased as a result of IDENT becoming interoperable with the 
Integrated Automated Fingerprint Identification System (IAFIS) of the 
Federal Bureau of Investigation. This interoperability supports ICE's 
Secure Communities initiative, which notifies ICE when a local law 
enforcement agency participating in Secure Communities arrests an 
immigration violator, including identified overstays, for a crime. The 
IDENT system provides the local law enforcement agency with identifying 
information such as a photograph, name, and date of birth. ICE then 
determines the appropriate response based on multiple factors including 
the type of crime, previous violations, and the availability of ICE 
personnel to respond. US-VISIT is supporting ICE's implementation of 
Secure Communities through the deployment of IDENT/IAFIS 
interoperability Nation-wide.
                               conclusion
    The Department believes that an effective entry and exit system is 
a critical tool in managing immigration and border processes, enforcing 
immigration laws, and enhancing National security. US-VISIT has made 
significant progress over the past several years to enhance the quality 
and credibility of overstay data by improving the automated matching of 
entries to exits; increasing production, efficiency, and performance in 
providing ICE with priority in-country overstay leads; and reviewing 
and creating biographic and biometric lookouts for all out-of-country 
overstays. Through this work, and the sharing of overstay information 
through IDENT, not only has US-VISIT significantly enhanced DHS' 
enforcement efforts, it also it has improved the integrity of our 
immigration system to a level that did not exist before.
    While DHS has made significant, tangible progress on the challenge 
of identifying and presenting actionable leads on visa overstays, we 
recognize there is still much to do to fulfill the vision for a more 
automated entry-exit system. I appreciate this opportunity to testify 
about the difference that the Department's US-VISIT program has made so 
far, and I look forward to working with you to continue to improve it.
    Thank you for holding this important hearing. I would be happy to 
respond to any questions you may have.

    Chairman Thompson. Thank you for your testimony. I allowed 
you to go over, because I think the committee needed to hear, 
going forward, what you plan to do to improve the overstay 
issue. Thank you for your testimony.
    I now recognize Assistant Secretary Morton to summarize his 
statement for 5 minutes.

    STATEMENT OF JOHN T. MORTON, ASSISTANT SECRETARY, U.S. 
  IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Morton. Mr. Thompson, Mr. King, Members of the 
committee, thank you very much for inviting me here.
    Today, we address the enforcement challenges posed by 
temporary visitors to the United States who come here and fail 
to depart as required--individuals we commonly refer to as visa 
overstays. This issue is an important one as the Congress 
considers questions of immigration reform.
    On the one hand, it is very much in our interest to 
encourage generous lawful trade and travel to the United 
States. On the other hand, we need an immigration system. We 
need border controls that are marked by integrity and 
credibility. No one is well served if our visa and visa-waiver 
programs can be abused with little consequence.
    While precise figures are hard to come by, we estimate that 
as many as 40 percent of the people that are here in the United 
States illegally are here as overstays. Most Americans, 
however, do not think of illegal immigration in terms of 
overstays; rather, they think of the illegal border-crosser 
dodging the Border Patrol along the Southwest border. Visa 
overstays, however, don't need to evade the Border Patrol. They 
have permission to come to the United States lawfully. They 
enter the country lawfully, and then they simply remain. In 
short, the lawful become the unlawful.
    Enforcing the law against visa overstays largely falls to 
ICE as part of its interior enforcement duties. ICE carries out 
this enforcement as resources permit, and in balance with other 
enforcement requirements--important requirements such as the 
removal of criminal aliens or the removal of fugitives and the 
removal of recent border-crossers apprehended at the border.
    Most of ICE's overstay efforts are concentrated in our 
Compliance Enforcement Unit, our CEU. This unit targets 
overstays identified through the Student Exchange Visitor 
Information System, or SEVIS, the National Security Entry-Exit 
Registration System, or NSEERS, and US-VISIT.
    These three programs and their data systems allow ICE to 
access information about millions of students, tourists, and 
temporary workers present in the United States at any one time, 
and to identify those who may have overstayed their visas. Due 
to resource constraints, however, almost all of the CEU's work 
is focused on cases with a link to National security or public 
safety.
    The CEU relies on the efforts of about 360 special agents 
and corresponding support staff. In addition, we have about 42 
contract analysts who work to conduct individual record checks 
of the various DHS databases to identify and refine the various 
leads that we receive.
    Each year, the CEU analyzes records of hundreds of 
thousands of potential status violators from SEVIS, NSEERS and 
US-VISIT, not just simply US-VISIT. These are reduced to cases 
worthy of field investigation, and sent to local field offices 
for action. On average, ICE opens about 6,000 investigative 
cases annually, and assigns them to our agents in the field. Of 
these 6,000, about 1,800 result in an arrest by CEU personnel. 
Other overstays are arrested by our detention-and-removal 
officers through our General Enforcement Program; for example, 
in our jail programs and in our worksite programs.
    As I discuss in my written remarks, the estimated number of 
individuals who have overstayed beyond the terms of their 
admission has remained at about 300,000 per year for the last 3 
fiscal years. It goes without saying that this is a problem for 
which we need a reasoned and systematic enforcement solution. 
Additional targeting and enforcement actions could certainly 
serve as a significant deterrent to visa overstays, and could 
reduce the overall number of visa overstays in the United 
States.
    To this end, I am currently reviewing our policies, 
programs, and procedures concerning visa overstays, and 
exploring ways on how I can best address this problem in a 
world of finite and limited resources.
    Given the sheer number of overstays, however--I am going to 
be candid--there is obviously no easy enforcement solution. I 
would like the committee to know, however, that I am personally 
open to working with the various Members who have an interest 
in this issue on innovative and creative solutions.
    I thank all of the Members of the committee for their 
continued support for ICE, our mission. Of course, I am happy 
to answer any questions you may have.
    [The statement of Mr. Morton follows:]
                  Prepared Statement of John T. Morton
                             March 25, 2010
                              introduction
    Chairman Thompson, Ranking Member King, and distinguished Members 
of the committee: It is my honor and privilege to appear before you 
today to discuss the efforts of U.S. Immigration and Customs 
Enforcement (ICE) to confront the problem of visa overstays. This issue 
of visa overstays and other forms of status violation blends two 
critical areas of ICE's mission--National security and immigration 
enforcement. In my view, ICE plays an important and effective role in 
enforcing the law related to visas, including working with the 
Department of State (DOS) in combating visa fraud and removing those 
who overstay their visas. ICE's Compliance Enforcement Unit (CEU) was 
created in 2003 to help confront the problem of visa overstays and 
other status violations, thereby enhancing National security.
    Today, through the CEU, ICE proactively develops cases for 
investigation in cooperation with the Student and Exchange Visitor 
Information System (SEVIS), the National Security Entry/Exit 
Registration System (NSEERS), and the United States Visitor and 
Immigrant Status Indicator Technology (US-VISIT) Program. These 
programs and their related data systems enable ICE to access 
information about the millions of students, tourists, and temporary 
workers present in the United States at any given time, and identify 
those who have overstayed or otherwise violated the terms and 
conditions of their admission.
    As we move forward, it is imperative that we expand the Nation's 
enforcement efforts concerning overstays and other status violations. 
This includes our continued focus on targeting overstays and other 
status violations that, based on available intelligence, may threaten 
National security. We must also expand our focus to other priority 
classes of status violations. Efficiently targeting and removing more 
aliens who overstay their authorized periods of admission, or who have 
otherwise violated their status, as early as possible, will help 
preserve valuable prosecutorial and investigative resources and improve 
our National security. Accordingly, ICE is analyzing various approaches 
to this issue, including sharpening the focus of proven programs that 
currently address vulnerabilities exploited by visa violators.
The Compliance Enforcement Unit
    In June 2003, the ICE Office of Investigations (OI) established the 
CEU, the first National program dedicated to the enforcement of non-
immigrant visa violations. Previously, no resources had been dedicated 
exclusively to the enforcement of visa non-compliance. As such, at its 
inception, the CEU was staffed almost entirely with personnel on 
temporary assignment. The CEU has grown considerably since then as ICE 
has prioritized its expansion. The first official funding for the CEU 
came in the fiscal year 2004 appropriations, in which $6.7 million was 
provided for 51 positions. Roughly one-third (16) of the fiscal year 
2004 CEU positions were placed at ICE headquarters. The remaining 35 
were placed in field offices throughout the country. At the end of 
fiscal year 2004, ICE obligated an additional $1.4 million toward 
compliance enforcement efforts. The total dollar amount spent includes 
the salaries, expenses, and other costs for 59 full-time equivalent 
(FTE) investigative positions. During fiscal year 2009, ICE expended 
$68.3 million (272 investigative FTE) toward compliance enforcement 
activities from appropriated resources. In addition, $21.2 million was 
expended from student exchange fees.
    ICE received the following funding increases for compliance 
enforcement investigations since the CEU's inception in 2003:
  <bullet> Fiscal year 2004.--$6.7 million;
  <bullet> Fiscal year 2005.--$8.3 million;
  <bullet> Fiscal year 2007.--$10.0 million;
  <bullet> Fiscal year 2008.--$9.0 million;
  <bullet> Fiscal year 2009.--$3.9 million.
    Each year, the CEU analyzes records of hundreds of thousands of 
potential status violators, after analysis of data from SEVIS, NSEERS, 
and US-VISIT, along with other information. These records are resolved 
by further establishing potential violations that would warrant field 
investigations, establishing compliance or establishing departure dates 
from the United States. Between 15,000 and 20,000 of these records are 
resolved by in-house analysts each month. Since the creation of the CEU 
in 2003, analysts have resolved more than 1 million such records. On 
average, ICE opens approximately 6,000 investigative cases annually, 
and assigns them to our agents in the field for further investigation. 
On average, these cases have resulted in over 1,400 arrests per year.
    A recent ICE investigation in Las Cruces, New Mexico, highlights 
how the CEU functions. As a result of CEU data analysis and field 
investigation, last month ICE agents arrested two foreign nationals who 
were admitted as F-1 nonimmigrant students and violated the terms and 
conditions of their admission. Both individuals were referred for 
investigation after their status was terminated in SEVIS for failure to 
maintain student status. These individuals possessed several other 
indicators of National security concerns.
    Agents and analysts in ICE monitor the latest threat reporting and 
proactively address emergent issues. This practice has contributed to 
ICE's counterterrorism mission by initiating or supporting high-
priority National security initiatives based upon specific 
intelligence.
    In order to ensure that the potential violators who pose the 
greatest threat to National security are given priority in targeting, 
ICE uses intelligence-based criteria, developed in close consultation 
with the intelligence and law enforcement communities. ICE assembles 
the Compliance Enforcement Advisory Panel (CEAP) on a tri-annual basis 
to ensure that it uses the latest threat intelligence to target 
nonimmigrant overstays and status violators who pose the highest risks 
to National security.
    Through the CEU, ICE also supports and promotes school fraud 
investigations through the Student and Exchange Visitor Program (SEVP). 
In March 2010, ICE's Compliance Enforcement Group in Miami, Florida, 
initiated ``Operation Class Dismissed,'' a criminal investigation that 
led to the indictment of the owner/operator of a Miami-based foreign 
language school and one of its employees on four counts of conspiring 
to commit a criminal offense against the United States. The owner and 
employee were suspected of fraudulently sponsoring foreign students by 
certifying student status to non-immigrants, without requiring them to 
maintain full courses of study as required to lawfully comply with the 
terms of their admission. The ICE investigation uncovered information 
that only approximately 5 percent of the school's students attended 
class on any given day. In addition to the indictment, follow-up 
investigation by ICE resulted in the administrative arrests of 81 
student visa violators purported to be attending the school from 
countries including Thailand, Syria, Honduras, South Korea, Japan, 
Colombia, Dominican Republic, Turkmenistan, Turkey, Indonesia, 
Venezuela, Brazil, and Kyrgyzstan.
Coordination With US-VISIT and Other DHS Components
    Through the CEU, ICE works in close collaboration with US-VISIT, 
part of the Department of Homeland Security's National Protection and 
Programs Directorate (NPPD). US-VISIT supports the Department of 
Homeland Security's mission to protect our Nation by providing 
biometric identification services to Federal, State, and local 
government decision-makers to help them identify the people they 
encounter accurately, and determine whether those people pose risks to 
the United States. DHS's use of biometrics under the US-VISIT program 
is a powerful tool in preventing identity fraud and ensuring that DHS 
is able to rapidly identify criminals and immigration violators who try 
to cross our borders under a new name. Biometric information sharing 
between the Federal Bureau of Investigation's Criminal Justice 
Information Services and US-VISIT also provides critical support to 
ICE's Secure Communities Program.
    Through Secure Communities, aliens--including those who have 
overstayed their visas or otherwise violated their immigration status 
and are then encountered by law enforcement--can be identified when 
booked for crimes by State and local law enforcement. Currently, this 
capability is available in 119 jurisdictions in 16 States. US-VISIT 
also supports the Department's ability to identify international 
travelers who have remained in the United States beyond their periods 
of admission by analyzing related biographical information. US-VISIT 
stores biographic entry and exit records in the Arrival and Departure 
Information System.
    ICE receives nonimmigrant overstay and status violation referrals 
from US-VISIT's Data Integrity Group (DIG). ICE currently receives 
three types of nonimmigrant status violator leads from US-VISIT.
    The first type, Nonimmigrant Overstay Leads, is a used by the CEU 
to generate field investigations.
    A second type of lead pertains to the CEU's Visa Waiver Enforcement 
Program (VWEP). The Visa Waiver Program (VWP) is the primary source of 
nonimmigrant visitors from countries other than Canada and Mexico. 
Although the overstay rate from this population is less than 1 percent, 
we created a program dedicated to overstays arising from this VWP 
population given the high absolute number of individuals in this 
category. Prior to the implementation of the VWEP in 2008, there was no 
National program dedicated to addressing overstays within this 
population. ICE receives a weekly list of individuals that US-VISIT has 
identified as potential overstays who entered the United States under 
the VWP. In accord with its intelligence-based criteria, a relevant 
portion of this report is imported into the CEU's internal lead 
tracking system for review and possible field assignment.
    The third type of lead is generated from biometric data collected 
by US-VISIT. US-VISIT routinely receives fingerprint records from a 
variety of governmental sources and adds them to a biometric watch list 
of individuals of National security concern. These new watch list 
records are checked against all fingerprints in the Automated Biometric 
Identification System, managed by US-VISIT, to determine if DHS 
previously encountered the individual. If US-VISIT identifies a prior 
encounter, such as admission to the United States, the information is 
forwarded to ICE for review and possible field assignment. Similarly, 
US-VISIT monitors records for individuals who, at the time of admission 
to the United States, were the subject of watch list records that did 
not render the individuals inadmissible to the United States. 
Therefore, if such individuals overstay their terms of admission, 
information on the subjects is forwarded to ICE for review and possible 
referral to investigative field offices for follow-up.
    Additionally, the CEU develops potential overstay and status 
violation leads from SEVIS and NSEERS. The CEU imports these leads 
directly from those databases, and applies its intelligence-based 
criteria to determine whether investigative referral is appropriate.
Broadening the Mission of the Compliance Enforcement Unit
    In 2004, the United States Government Accountability Office (then 
called the United States General Accounting Office) estimated that one-
third of the illegal alien population had entered the United States 
legally but had overstayed their periods of authorized stay.\1\ 
According to annual overstay analysis produced by US-VISIT, the number 
of individuals who overstayed the terms of their admission each year 
has remained above 300,000 for fiscal years 2007, 2008, and 2009. The 
Pew Hispanic Center estimates the total number of visa overstays in the 
United States at approximately 4.4 million.\2\ ICE is currently 
reviewing its policies, programs, and procedures concerning visa 
overstays, and continues to explore how to most effectively allocate 
its finite resources. Additional targeting and enforcement actions 
could provide a significant deterrent to overstays and could reduce the 
overall number of visa overstays in the United States.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office ``Overstay Tracking: A Key 
Component of Homeland Security and a Layered Defense'', 5/1/2004, 
http://www.gao.gov/new.items/d0482.pdf.
    \2\ Pew Hispanic Center, ``Modes of Entry for the Unauthorized 
Migrant Population'', 5/22/2006, http://pewhispanic.org/files/
factsheets/19.pdf, The estimate assumes the range of 4-5.5m for 
overstays and 250,000-500,000 for Border Crossing Cards. The Pew 
estimate is based on an assumption that visa overstays represent 40-50 
percent of the unauthorized population. The estimate for visa overstays 
and visa waiver overstays employs the middle of the range based on 
conversations with the DHS Office of Immigration Statistics. The 
estimate of border crossing card overstays employs the higher estimate 
based on a recommendation from OIS that BCC overstay population 
increases each year. The Office of Immigration Statistics agrees the 
Pew analysis is the best existing estimate on the visa overstay 
population.
---------------------------------------------------------------------------
                               conclusion
    I thank the committee for its support of ICE and our law 
enforcement mission. Your support is vital to our work. Your continued 
interest and oversight of our actions is important to the men and women 
at ICE, who work each day to ensure the safety and security of the 
United States.
    I would be pleased to answer any questions you have at this time.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Inspector General Skinner to summarize his 
statement for 5 minutes.

STATEMENT OF RICHARD L. SKINNER, INSPECTOR GENERAL, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Skinner. Good morning, Chairman Thompson, Ranking 
Member King, and Members of the committee. Thank you for 
inviting me today to testify on visa overstays.
    First, let me point out that over the past 5 years, my 
office has spent countless hours reviewing the Department's 
immigration programs. However, on the subject of visa 
overstays, we completed only two reviews, and both were 
completed in calendar year 2005. So please excuse me if some of 
the issues we raised in those reports seem to be dated today.
    Those reports dealt with the Department's US-VISIT program 
and ICE's Compliance Unit--Enforcement Unit. While some of the 
issues addressed in those reports may have changed, the 
challenges of identifying and removing visa overstays has 
remained unchanged, or may have even intensified over time.
    Most approved visitors in the United States leave before 
their visas expire, but many don't. Some estimates suggest that 
as many as 4 million overstays are in the United States today. 
Overstays perpetuate the illegal-immigration problem by using 
the visa process to remain unlawfully in the United States. 
Moreover, some overstays represent a very real National 
security threat. Ranking Member King, I think you even 
mentioned this--that at least six of the 9/11 hijackers were, 
in fact, visa overstays.
    In an effort to reduce the number of aliens residing in the 
United States who have violated the terms of their visa, ICE 
has established the Compliance Enforcement Unit to track and 
pursue foreign students, exchange visitors, and other non-
immigrant visitors who violate their immigration status. 
Essentially, ICE draws up on three databases to gather and 
analyze leads on visitors to the United States.
    These are, at first, US-VISIT, which verifies the 
identities of incoming visitors and ensures compliance with 
visa and immigration policies; second, the Student and Exchange 
Visitor Information System, which maintains data on roughly 1 
million non-immigrant foreign student and exchange visitors; 
and, third, NSEERS, the National Security Entry-Exit 
Registration System, which is a registry of selected foreign 
visitors who, based upon country of origin or other 
intelligence-based criteria, may present an elevated National 
security concern.
    Between January 2004 and January 2005, which was the scope 
of our study, ICE reviewed over 300,000 leads compiled from 
these three databases. Of these leads, only about 143,000 were 
processed. That is about 47 percent--of which, about 139,000 
were closed as ``non-actionable''--that is the individual 
either left, or we couldn't verify addresses. About 4,100 were 
actually referred for investigation, which resulted in 671 
apprehensions.
    Our review of ICE's program to identify and remove visa 
overstays disclosed that ICE did not always validate the 
veracity of actionable leads. As a result, viable staff time 
was wasted chasing down false leads. It did not have a means to 
match available resources with workload demands. Consequently, 
limited resources were not always being used in the most 
efficient manner possible. Finally, it did not always document 
the reasons for not pursuing violator leads. Consequently, ICE 
could not be sure it had a complete record about a violator 
when chasing down any subsequent leads about that violator.
    Adding to the complexity of the overstay issue is the large 
number of travelers who are exempted from enrollment in US-
VISIT, such as the Mexican Border Crossing Card holders, who 
account for almost nearly half of the land-border crossings. 
Implementing US-VISIT at the land ports of entry is more 
complex and challenging than air and sea ports, both of which 
offer an array of logistical control features such as scheduled 
arrival and departure times.
    Land ports of entry must be able to accommodate larger and 
constant flows of traffic. Small increases in processing time 
can translate more quickly into travel delays and impede border 
crossing. In early 2008, GAO criticized DHS for not having a 
comprehensive strategy for controlling and monitoring the exit 
of foreign visitors. In a report released earlier this year, 
GAO again criticized DHS for not adopting an integrated process 
scheduling, executing, and tracking the work that needs to be 
accomplished to deliver the exit strategy.
    We recognize that ICE has already made considerable process 
in managing and prioritizing its workload of National security 
cases, criminal-alien cases, and fugitive-alien cases. We also 
recognize that enhancements have been made to the Department's 
visitor databases, which, in turn, enhances ICE's ability to 
locate and remove visa overstays. However, even if the 
Department can monitor these exit of foreign visitors through 
US-VISIT, it is highly unlikely that it can eliminate visa 
overstays altogether.
    The Department can, however, improve its efforts to remove 
those overstays that pose the biggest threat to our society--
that is terrorists, criminals, and fugitives--by continuing to 
invest in ICE's enforcement and compliance operations.
    Mr. Chairman, this concludes my statement. I will be happy 
to answer any questions you may have.
    [The statement of Mr. Skinner follows:]
                Prepared Statement of Richard L. Skinner
                             March 25, 2010
    Chairman Thompson, Ranking Member King, and Members of the 
committee: Thank you for inviting me to testify on visa overstays. 
While most visitors leave by the time their visas expire, many 
thousands remain in the United States illegally. Overstays perpetuate 
the illegal immigration problem by using the visa process to break the 
law to remain in the United States. Moreover, some overstays represent 
a very real National security risk to the Nation. At least six of the 
9/11 hijackers were visa overstays.
    The Department of Homeland Security estimates that approximately 
10.8 million unauthorized immigrants live in the United States. In an 
effort to reduce the number of aliens residing in the United States who 
have violated the terms of certain types of visas, U.S. Immigration and 
Customs Enforcement established the Compliance Enforcement Unit (CEU) 
in June 2003. The CEU tracks and pursues overstays including, foreign 
students, exchange visitors, and other non-immigrant visitors who 
violate their immigration status. The CEU draws upon various Government 
databases to gather and analyze leads on visitors to the United States, 
identify potential security or criminal threats, and ensure full 
compliance with immigration laws. Additionally, the CEU supports 
enforcement actions as a result of visa revocation actions taken by the 
Department of State (DOS).
    The CEU develops leads on immigration violators by collecting and 
examining data from three key National databases:
  <bullet> The U.S. Visitor and Immigrant Status Indicator Technology 
        program, administered by DHS, verifies the identities of 
        incoming visitors and ensures compliance with visa and 
        immigration policies. US-VISIT collects travel information and 
        biometric identifiers such as fingerprints to verify the 
        identity of visitors to the United States upon their arrival 
        and departure.
  <bullet> The Student and Exchange Visitor Information System is an 
        internet-based program, administered by ICE, which maintains 
        data on roughly 1 million non-immigrant foreign students and 
        exchange visitors during their stay in the United States. SEVIS 
        was developed in 2002 to improve Nation-wide coordination and 
        communication in monitoring student visa activity.
  <bullet> The National Security Entry-Exit Registration System is a 
        DHS-administered registry of selected foreign visitors who, 
        based upon country of origin or other intelligence-based 
        criteria, may present an elevated National security concern.
    Since its creation in June 2003, the CEU has reviewed more than 
500,000 leads compiled from these databases. Of these leads, nearly 
16,000 revealed potential violations of U.S. visa or immigration law, 
which were referred to ICE field offices for investigation. To date, 
these investigations have resulted in more than 3,000 arrests.
    In September 2005, we conducted a review to evaluate the efficacy 
and effectiveness of ICE CEU in identifying, locating, and apprehending 
aliens who have violated the purpose and terms of their admission into 
the United States.
    Based on our review of the number of cases referred to the CEU and 
the procedures and systems used to collect, analyze, and process these 
referrals, we identified several deficiencies in the CEU process. We 
made four recommendations:

    1. Ensure that data quality issues are addressed, in conjunction 
        with officials from the various lead referral systems, and that 
        validity checks are performed to increase the number of 
        ``actionable'' leads referred to CEU.

    2. Assess the CEU workflow process, establish, and closely monitor 
        processing performance measures to ensure that CEU staff is 
        working efficiently, and determine when staffing adjustments 
        are needed to ensure timely processing of all violator leads.

    3. Ensure that adequate justification exists for lead closure and 
        that this justification is documented.

    4. Redistribute policy and guidance documents to ICE field offices 
        and consolidate current policy memoranda into a set of Standard 
        Operating Procedures (SOPs) for distribution to all ICE field 
        offices; and, establish an ICE-wide resource for access to the 
        CEU SOPs, as well as other current information regarding CEU 
        activities.

    We closed recommendations 2 and 3 based on ICE's response to our 
draft report. For recommendation 2, ICE stated that the CEU has refined 
how it prioritizes leads that pose the greatest potential threat to 
National security and public safety. The CEU will make staffing 
adjustments to address increased workloads by adding additional 
research analysts and, when necessary, detailing ICE investigators to 
the regions with the highest workloads. This will facilitate research 
of additional leads. The CEU has a Student and Exchange Visitor Program 
liaison assigned to review Student Exchange Visitor Program leads 
before they are transmitted to the field for investigation.
    Regarding recommendation 3, in its response to our draft report, 
ICE stated that CEU policy and guidance memoranda are either currently 
available through ICE's proprietary website or are in the process of 
being added. Additionally, the CEU will make field managers responsible 
for CEU operations aware that CEU-related policy memoranda are 
available on-line. ICE also provided two agents from each Special 
Agent-in-Charge office with training on CEU operations and how to 
access SEVIS and US-VISIT information. Insofar as many CEU leads are 
sent directly to Resident Agent-in-Charge (RAC) offices, we believe 
that agents assigned to ICE RAC offices would also benefit from this 
training.
    On February 6, 2006, we closed recommendations 1 and 4. For 
recommendation 1, ICE reported that the CEU had refined or established 
new business processes with the DOS, the Student Exchange Visitor 
Program, and US-VISIT Program that will enable CEU to focus 
investigative resources on a smaller set of high quality records, 
thereby reducing the number of non-actionable leads. These processes 
include access to the DOS data systems, which will allow for rapid 
referrals of visa revocations to ICE field offices for investigation, 
and the correction of data errors in SEVIS to identify individuals who 
are no longer residing in this country. The Student Exchange Visitor 
Program office is also exploring the use of the unique personal 
identifier, which will allow for the consolidation of foreign student 
records in SEVIS and facilities interoperability with US-VISIT and U.S. 
Citizenship and Immigration Services systems. The US-VISIT Program 
office is retrieving additional departure records not found in the 
Arrival and Departure Information System (the entry-exit component of 
US-VISIT) to ensure that all US-VISIT overstay records forwarded to CEU 
are thoroughly researched through all available entry-exit databases.
    In addition, for recommendation 4, ICE verified that CEU policy and 
guidance memoranda are currently available on the ICE Office of 
Investigations proprietary website. The CEU has conducted eight 
training classes for its field agents.
    We also reported that the sum of deficiencies in the systems, in 
the CEU's output, and other factors in the apprehension and removal 
process resulted in minimal impact in reducing the number of overstays 
in the United States. Adding to the complexity of the overstay issue is 
the large number of travelers who are exempt from enrollment in US-
VISIT. This includes Mexican Border Crossing Card (BCC) holders. BCC 
holders, who accounted for nearly half of foreign nationals land border 
crossings, are exempt from enrollment when they enter under BCC 
provisions.
    Implementing US-VISIT at land ports of entry (POE) is more complex 
and challenging than air and sea POEs; both of which offer an array of 
logistical and control features, such as scheduled arrival and 
departure times, accommodations for delayed travel, and advanced 
passenger information. Land POEs must be able to accommodate larger and 
constant volumes of foreign nationals. At land POEs, small increases in 
processing times translate more quickly into travel delays that impede 
border crossing, which can have deleterious economic effects for both 
border nations. For example, we examined the impact of a 20-second 
increase in inspections time for 3.5 million vehicles. We calculated 
that it would take the approximate equivalent of 2.22 additional 
calendar years to inspect these additional vehicles. Although other 
variables could affect the equation, the increase of 2.22 calendar 
years in inspections time could translate into significant resource 
implications for U.S. Customs and Border Protection, as well as 
significant increases in waiting time for travelers.
    In February 2008, the General Accountability Office (GAO) reported 
that DHS has partially defined a strategic solution for meeting US-
VISIT's goals. In particular, the US-VISIT program office has defined 
and begun to develop a key capability known as ``Unique Identity,'' 
which is to establish a single identity for all individuals who 
interact with any immigration or border management organization by 
capturing the individual's biometrics, including 10 fingerprints and a 
digital image, at the earliest possible interaction. However, in that 
same report, GAO criticized DHS for not having a comprehensive strategy 
for controlling and monitoring the exit of foreign visitors.
    In our report, we stated ``A US-VISIT exit component is not in 
place at land POEs. Without the exit component, US-VISIT cannot match 
entry and departure records and cannot identify those non-immigrants 
who may have overstayed the terms of their visas.'' However, in a GAO 
report released this year, the GAO credits DHS for having established a 
comprehensive exit project within the US-VISIT program that consists of 
six components that are at varying stages of completion. Again, 
however, GAO criticizes DHS for not adopting an integrated approach to 
scheduling, executing, and tracking the work that needs to be 
accomplished to deliver an exit solution. GAO contends that without a 
master schedule, DHS cannot reliably commit to when and how work will 
be accomplished to deliver a comprehensive exit solution to its 300 
POEs, and cannot adequately monitor and manage its progress toward that 
end.
    On December 9, 2009, Secretary Napolitano stated in her testimony 
before the Senate Committee on the Judiciary that ``DHS has continued 
to enhance US-VISIT's capabilities by implementing 10-fingerprint 
processing. Ten-fingerprint scanners have now been deployed to all 
major ports of entry, providing the capability to capture 10 
fingerprints from travelers. This has improved accuracy of 
identification, enhanced interoperability with the FBI and the 
Department of State, as well as with State, local, and Tribal 
governments, and increased our ability to conduct full searches against 
latent fingerprint databases.''
    ``We [DHS] also have continued to test US-VISIT biometric exit 
procedures for travelers departing U.S. airports and seaports. From May 
to June 2009, US-VISIT conducted two air exit pilots at the Detroit 
Wayne Country Metropolitan Airport and Hartsfield-Jackson Atlanta 
International Airport. In October, we provided an evaluation of these 
pilot tests to Congress and the Government Accountability Office.''
    ``Currently, we [DHS] are reviewing public comments from the Notice 
of Proposed Rule Making the Department published in the Federal 
Register in April, 2009 proposing an exit system for airports. We will 
continue to work with Congress and industry partners to weigh our 
options and develop an effective system that meets our security 
objectives while facilitating lawful travel.''
    The US-VISIT program office reviews and analyzes information in the 
Arrival and Departure Information System (ADIS), a US-VISIT module used 
to store biographic, biometric indicator, and encounter data on aliens 
who have applied for entry, entered, or departed the United States. 
ADIS consolidates information from various systems in order to provide 
a repository of data held by DHS for pre-entry, entry, status 
management, and exit tracking of immigrants and non-immigrants. Its 
primary use is to facilitate the investigation of subjects of interest 
who may have violated their authorized stay.
  other oig work that spotlights apprehension, detention, and removal 
                                actions
    In March 2007, we issued a report on ICE's Fugitive Operations 
Teams. Fugitive Operations teams perform under the auspices of the 
Office of Detention and Removal Operations' National Fugitive 
Operations Program. The purpose of the National Fugitive Operations 
Program is to identify, apprehend, and remove fugitive aliens from the 
United States. The ultimate goal of the program is to eliminate the 
backlog of fugitive aliens. Fugitive aliens are non-United States 
citizens not currently in the custody or control of ICE who have failed 
to depart the United States pursuant to a final order of removal from 
the Executive Office for Immigration Review. The orders require the 
aliens to be removed from this country.
    Our review's objectives were to determine the adequacy of 
performance measures used to assess the effectiveness of the teams and 
their progress in reducing the backlog of fugitive alien cases. We 
assessed the sufficiency of the teams' staffing levels, factors 
affecting the teams' operations, such as coordination activities with 
internal and external entities, and training policies and practices for 
the teams.
    We determined that despite the teams' efforts, the following 
factors limited their effectiveness:
  <bullet> Insufficient detention capacity;
  <bullet> Limitations of its immigration database, the Deportable 
        Alien Control System, which is the Office of Detention and 
        Removal Operations' system of records;
  <bullet> Inadequate working space;
  <bullet> Team members performing non-fugitive operations duties 
        contrary to the Office of Detention and Removal Operations 
        policy; and,
  <bullet> Insufficient staffing.
    Additionally, ICE could not calculate the removal rate of fugitive 
aliens apprehended by the teams because the Office of Detention and 
Removal Operations' reports did not specify whether removed aliens were 
fugitive or non-fugitive aliens or whether a Fugitive Operations Team 
or non-team member made the apprehensions. Moreover, since the office 
does not distinguish between fugitives and non-fugitives in its removal 
figures, we could not determine the percentage of fugitive aliens 
removed from the country. More specifically, it is unknown how many of 
the fugitive aliens apprehended by the teams were removed. When 
fugitive aliens have not been removed, they are likely released into 
the United States on their own recognizance or under an order of 
supervision, which is similar to a parole.
    Finally, we determined that the teams have basic law enforcement 
training and most have completed the requisite training to conduct 
fugitive operations. In addition, while teams are encouraged to seek 
refresher training, there is no National requirement for it.
    We made seven recommendations to address these issues. ICE 
concurred with each of the seven recommendations. For example, we 
recommended that ICE develop a detailed plan to ensure adequate 
employee workspace. To address this recommendation, ICE is coordinating 
a Space Allocation Survey with several entities, including the General 
Services Administration and U.S. Customs and Border Protection, to 
identify the need for additional workspace and then assessing available 
resources to accommodate such request. In addition, in October 2006, in 
order to facilitate the deployment of fiscal year 2007 Fugitive 
Operations Teams, ICE specifically asked affected field offices whether 
new and pre-existing sites needed additional storage and parking space, 
gyms, and holding facilities.
    We also recommended that ICE provide appropriate resources to 
detain, process, and remove fugitive aliens. ICE explained that it 
created the Detention Operations Coordination Center to coordinate the 
movement and placement of detained aliens to allocate detention space 
effectively. In addition, ICE's Office of Detention and Removal 
Operations units are engaged in activities to develop a comprehensive 
infrastructure that would improve coordinated removal efforts and 
management of detention space.
    Although ICE has taken positive steps to improve its capability to 
detain, process, and remove aliens, ICE identified several external 
factors that impede the Office of Detention and Removal Operations' 
ability to execute removal operations, such as:
  <bullet> Foreign embassies and consulates refusal or delay of issuing 
        travel documents;
  <bullet> Grants of relief, motions to reopen, issuances of stays, and 
        other legal decisions from the Executive Office for Immigration 
        Review and the Federal courts; or
  <bullet> The United States Supreme Court order barring prolonged 
        detention after 180 days, if removal of an alien in ICE custody 
        is not reasonably foreseeable.
    The teams are successfully liaising and coordinating with other 
entities to locate, apprehend and obtaining information on fugitive 
aliens and enlisting other entities' participation in Fugitive 
Operations Team-led apprehensions through information-sharing 
agreements and partnerships with Federal, State, and local law 
enforcement agencies. The teams' reliance on formal information-sharing 
agreements and other agencies for information gathering provides added 
resources that might not have been available to the teams otherwise.
    In June 2001, the Supreme Court ruled that an alien with a final 
order of removal generally should not be detained longer than 6 months. 
To justify an alien's continued detention, current laws, regulations, 
policies, and practices require the Federal Government to either 
establish that it can obtain a passport or other travel document for 
the alien in the ``reasonably foreseeable future,'' or certify that the 
alien meets stringent criteria as a danger to society or to the 
National interest. ICE is responsible for ensuring compliance with the 
Court's ruling and final order case management.
    In February 2007, we issued a report on ICE's compliance with two 
U.S. Supreme Court decisions governing the detention period for aliens 
with a final order of removal. We reviewed ICE's compliance with 
detention limits for aliens who were under a final order of removal 
from the United States, including the reasons for exceptions or 
noncompliance. ICE has introduced quality assurance and tracking 
measures for case review; however, outdated databases and current 
staffing resources limit the effectiveness of its oversight 
capabilities. Based on our review, approximately 80 percent of aliens 
with a final order are removed or released within 90 days of an order. 
Custody decisions were not made in over 6 percent of cases, and were 
not timely in over 19 percent of cases.
    Moreover, some aliens have been suspended from the review process 
without adequately documented evidence that the alien is failing to 
comply with efforts to secure removal. In addition, cases are not 
prioritized to ensure that aliens who are dangerous or whose departure 
is in the National interest are removed, or that their release within 
the United States is adequately supervised. Finally, ICE has not 
provided sufficient guidance on applying the Supreme Court's 
``reasonably foreseeable future'' standard, and does not systematically 
track removal rates--information that is necessary for negotiating 
returns and for determining whether detention space is used 
effectively.
    The weaknesses and potential vulnerabilities in the post order 
custody review process cannot be easily addressed with ICE's current 
oversight efforts, and ICE is not well-positioned to oversee the 
growing detention caseload that will be generated by DHS' planned 
enhancements to secure the border.
    We recognize that ICE has already made considerable progress in 
managing National security cases. The Headquarters Custody 
Determination Unit (HQCDU) should have at least one officer working 
full-time on each of the National security, terrorism, war criminal, 
and human rights abuser caseloads. However, at the time of our report, 
only one officer was working on National security, terrorism, war 
criminal and the human rights abuser caseloads in addition to other 
duties. With adequate staffing, the unit could take a more proactive 
approach to monitoring and prioritizing the whole caseload, which might 
secure faster returns and fewer or better-supervised releases.
    ICE's Office of Detention and Removal Operations makes thousands of 
decisions on Post Order Custody Review cases each year, and many should 
be analyzed to identify the effect on removals for a number of factors. 
During the period under review, available statistics indicated that 40 
percent of habeas corpus challenges were followed by a release, 
indicating that Government entities are finding the decisions made 
under the existing system could not be supported when challenged. 
Making the process more objective and transparent will enable HQCDU to 
support its decisions when they are challenged. While the HQCDU makes 
all 180-day and post 180-day Post Order Custody Review decisions, once 
the 180-day decision has been made, responsibility for monitoring cases 
and initiating subsequent reviews shifts to deportation officers in the 
field. Without a written decision from the unit, deportation officers 
would not have necessary information to determine when to initiate a 
review of post-180-day detention. Reviewing a decision at the request 
of a field deportation officer does not automatically compel the HQ 
Custody Determination Unit to release the alien. Tracking statistics on 
removal rates will provide additional information on which to base 
their decision, but will not constrain them from taking into account 
changes in country conditions, on-going negotiations, the circumstances 
of the individual alien, or their expertise and experience.
    ICE regulations and procedures provide less oversight and review 
after an alien has been held 180 days, despite the increasing burden on 
the Government to establish that an alien's removal will occur in the 
reasonably near future. These cases would benefit from a broader range 
of strategies to ensure regulatory compliance and the most effective 
use of existing resources, such as detention space. Oversight should 
include periodic field office meetings with local pro bono 
organizations. Pro bono organizations are a source of information on 
potential compliance issues, can assist in resolving post 180-day 
cases, and can--and do--raise compliance issues in court if they are 
not resolved at the local field office level.
    To address these challenges, we made five recommendations. ICE 
concurred and subsequently complied with all except one recommendation. 
First, we recommended that ICE require each Field Office Director to 
report case-specific compliance with Post Order Custody Review 
regulations and guidance to the HQ Custody Determination Unit on a 
quarterly basis, which would provide this information to the Assistant 
Secretary semi-annually until such information can be obtained through 
ENFORCE data system.
    Second, we recommended that ICE ensure that existing vacancies in 
the Travel Documents Unit are filled and, as staff or funding becomes 
available, ensure this office upgrades its intranet.
    Third, ICE needs to develop and staff a program to identify and 
prioritize cases involving aliens who represent a violent threat to the 
public or are National security or National interest cases, so that 
efforts to secure travel documents are expedited, and placement 
procedures are initiated early for those who might require eventual 
release within the United States. This recommendation is an issue of 
resources rather than of commitment.
    Our fourth recommendation concerns ICE's need to develop an 
objective and transparent methodology for determining whether there is 
a significant likelihood of removal for all cases, which considers: (1) 
The Supreme Court's requirement for increasing scrutiny over time; (2) 
the factors outlined in ICE regulations; and, (3) comprehensive 
statistics on actual removal rates for all Post Order Custody Review 
cases forwarded to the Travel Documents Unit.
    We also recommended that ICE develop and staff a program to improve 
oversight of all aliens who have been in detention longer than 180 days 
after a final order of removal.
    In November 2006, we issued a report, entitled Review of the U.S. 
Immigration and Customs Enforcement Detainee Tracking Process. Our 
audit objectives were to determine whether ICE had an effective system 
to track the location of detainees and respond to public inquiries. 
Detainees are often transferred from one facility to another for 
various reasons including medical, security issues, or other ICE needs. 
ICE field offices use the Deportable Alien Control System to track 
detainees. This system automates many of the clerical control functions 
associated with the arrest, detention, and deportation of illegal 
aliens. The system provides management information concerning the 
status and disposition of individual cases, as well as statistical and 
summary data of cases by type, status, and detainee-specific 
information including the detainee assigned number, name, country of 
origin, book-in date, and detention facility.
    Our audit determined that the detainee tracking system, for five of 
the eight ICE detention facilities tested, did not always contain 
timely information. At the five facilities, data for 10 percent of the 
detainees examined were not recorded in the ICE tracking system within 
the first 5 days of detainment. ICE procedures stipulated that detainee 
data should be recorded in Deportable Alien Control System as soon as 
possible, usually within 2 business days from the date of detainment.
    At six of eight ICE detention facilities tested, Deportable Alien 
Control System and detention facility records did not always agree on 
the location of detainees, or contained information showing the 
detainee had been deported. Inaccurate detainee information reduces 
ICE's ability to correctly identify the actual location of detainees 
and to verify that individuals have been detained. There is also the 
potential for ICE to under- or overpay detention facilities because of 
incorrect data.
    ICE had no formal policy regarding what information it would 
provide to anyone inquiring about detainees in their custody. However, 
the four field offices we visited and the eight detention facilities 
contacted said that they would confirm whether the detainee was held in 
their facility. Requests for more detailed information would be 
referred to ICE headquarters.
    To address these challenges, we made three recommendations. We 
recommended that ICE:
  <bullet> Issue formal instructions to field offices requiring timely 
        Deportable Alien Control System entries and proper supervisory 
        review;
  <bullet> Perform daily/periodic reconciliations of system data; and
  <bullet> Obtain a reimbursement of the $7,955 in ICE net 
        overpayments.
    ICE concurred with all three recommendations.
    In summary, I believe we all can agree that significant number of 
foreign visitors, who enter the United States legally, overstay their 
authorized period for admission, and enforcing the law and ensuring 
that foreign visitors leave the country as scheduled while continuing 
to make the United States a welcome place for foreign travelers is an 
important but challenging balance to maintain. Biometrically-enabled 
entry capabilities are operating at the vast majority of air, sea, and 
land ports of entry, and is identifying previous visa violators and 
others whose admissibility is questionable. However, the use of a 
comparable exit capability remains unclear.
    Mr. Chairman, Members of the committee, you can be sure that my 
office is committed to continuing our oversight efforts for this 
challenging and complex issue in the months and years ahead.
     This concludes my prepared statement. I would be happy to answer 
any questions you or the Members of the committee may have.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Mr. Alden to summarize his statement for 5 
minutes.

 STATEMENT OF EDWARD ALDEN, SENIOR FELLOW, COUNCIL ON FOREIGN 
                           RELATIONS

    Mr. Alden. Chairman Thompson, Ranking Member King, 
distinguished Members, thank you very much for inviting me to 
testify on the issue of visa overstays.
    I just want to set this hearing into a bit of context. I 
have been observing and writing about U.S. efforts to secure 
the borders since 9/11. I was reflecting this morning on what 
an extraordinary undertaking this has been. The United States 
has historically been an open country in which the Federal 
Government knew very little about who was coming or going. That 
openness has been a great strength, bringing to our shores the 
talented, restless, and ambitious from across the world.
    But in the new age of terrorism, that same openness also 
proved a dangerous weakness. We are still in the early stages 
of trying to figure out how, in this new world, to manage the 
borders, to manage visa policy, and to manage immigration in a 
way that preserves America's strengths, but reduces its 
vulnerabilities. That is not an easy thing to do. There have 
been, and will be, mistakes in both directions.
    On the issue before us, Congress has long pushed for a 
biometric system that would identify all those who come 
lawfully to the United States, but then overstay their visas. 
Considerable progress has been made, and pilot projects have 
been tested, but such a system has yet to be deployed. This 
hearing serves as an excellent opportunity to reassess future 
directions, and to ensure that, in dealing with visa 
overstays--that perfect will not be the enemy of the very good.
    I have four points to make briefly. First, even without a 
biometric exit system, the Department of Homeland Security has 
made considerable progress through the use of passenger 
manifest data. DHS collects from all airlines advanced 
information, including names and nationalities and passport 
numbers, on all incoming passengers. That information has been 
vital in helping to identify potential terrorists and criminal 
threats.
    Since February 2008, DHS has also required airlines to 
transmit the same passenger information for departures to 
determine whether those who arrive by air are leaving before 
their visas expire.
    There are certainly limitations in using this data to track 
visa overstays. A traveler could arrive by air and leave over 
the land borders, for instance, and not be traced. Or a dual 
national could enter on one passport and leave on another. 
Therefore, DHS cannot know for certain that a particular 
traveler has remained illegally in the United States.
    These are real issues. If identifying visa overstayers were 
critical for preventing future terrorist attacks, that 
uncertainty would be an unacceptable risk. But that is not the 
case--which leads to my second point. The reason to track 
overstays is to discourage illegal immigration. Exit tracking 
is not a counterterrorism tool. There are other, better means 
available for dealing with those who violate their non-
immigrant visas. I would be happy, in the questions, to talk 
about the Atta and Rahman and Smadi cases, because I think they 
are often misunderstood.
    The fundamental challenge with regard to foreign-based 
terrorists is to keep them out of the United States. Congress 
and this administration have correctly made it a priority to 
improve entry screening systems such as US-VISIT entry, 
electronic system of travel authorization for visa-waiver 
countries, and international data-sharing on lost and stolen 
passports.
    Even if all overstays could be positively identified, 
Immigration and Customs Enforcement lacks the resources to 
routinely track down, arrest, and deport those individuals. ICE 
is rightly focused on removing illegal immigrants who also have 
criminal records or otherwise pose a greater risk. Certainly, 
there is much the United States can do to stop individuals from 
overstaying their visas and remaining illegally.
    Last year, the State Department rejected more than 2 
million visa applicants, most because they were considered 
potential overstayers. There are harsh penalties, including 3- 
and 10-year bars for those who overstay visas. Indeed, 
sometimes, those need to be implemented with greater 
flexibility than we have seen.
    It has become easier to identify overstayers. Just in the 
past year, all State Department consular officers can now 
search the DHS database that identifies most air travelers who 
leave after their visas expire. That information will soon 
appear automatically on the screen of every consular officer 
who adjudicates the visa.
    Third, the Government must be very careful that any 
additional measures to prevent overstays do not discourage 
other travelers and would-be immigrants. Overseas travel to the 
United States fell sharply after 9/11, and had yet to recover 
even before the current recession. Foreign-student numbers 
dropped as well. This has hurt the U.S. economy and harmed our 
image abroad by preventing people from coming to see this 
country for themselves.
    In working towards biometric exit, the Bush and Obama 
administrations should both be praised for proceeding 
cautiously to avoid new measures that drive away lawful 
travelers, which leads me to my final point. The costs of 
deploying a full biometric exit capability as currently 
envisioned by Congress are likely to exceed the benefits.
    Central philosophy underpinning DHS since its creation is 
in the idea of risk management; but the costs of new security 
procedures should be carefully weighed against the expected 
benefits. A biometric exit system does not pass that test.
    Congress and this administration should instead look at 
whether further accuracy in tracking visa overstays could be 
realized through a combination of biographic and biometric 
means, rather than through a pure biometric approach.
    Thank you. I look forward to responding to your questions.
    [The statement of Mr. Alden follows:]
                   Prepared Statement of Edward Alden
                             March 25, 2010
    Chairman Thompson, Ranking Member King and distinguished Members of 
the Committee on Homeland Security, thank you for the opportunity to 
testify today on the issue of ``Visa Overstays: Can They be 
Eliminated?''. Congress has long sought the creation of a system to 
allow the U.S. Government to identify accurately those who come 
lawfully to the United States but then overstay the terms of their 
entry. Considerable progress has been made, but a range of obstacles 
has so far prevented its completion. This hearing serves as an 
excellent opportunity to reassess future directions, and to ensure 
that, in the effort to discourage visa overstays, the perfect will not 
be the enemy of the very good.
    I will make four points in the testimony that follows:
    First, the problem of identifying all those who overstay their 
visas or other entry conditions remains unsolved, but the Department of 
Homeland Security (DHS) has made significant and under-recognized 
progress for air departures through the use of passenger manifest data. 
Congress should encourage the administration to build on these 
accomplishments rather than insisting on a fingerprint-based, biometric 
exit system for identifying visa overstayers.
    Second, the primary value of a system for tracking overstays is to 
bring greater integrity to U.S. immigration laws and to discourage 
illegal immigration. Exit tracking has little or no utility as a 
counterterrorism tool, and there are other better tools available for 
discouraging illegal immigrants who choose to overstay their 
nonimmigrant visas.
    Third, the Government must be extremely vigilant that the 
deployment of additional measures to prevent overstays does not have 
the unintended consequence of deterring lawful travelers to the United 
States. Travel to the United States fell sharply following the 
September 11 terrorist attacks, and overseas travel had yet to recover 
to pre-9/11 levels even before the current recession. Discouraging 
foreign travel has hurt the U.S. economy, and damaged America's ability 
to project its values by encouraging people to come to the United 
States and see the country first-hand rather than through a foreign 
media lens.
    Finally, the costs of deploying of a full biometric exit capability 
as currently envisioned by Congress are likely to exceed the benefits. 
The United States should consider seriously other options at the land 
borders, especially better use of RFID capabilities already embedded in 
many identity documents and data sharing with the Canadian and Mexican 
governments that would allow the United States to access records for 
those entering Canada and Mexico across the land border.
 it remains difficult to identify all visa overstayers, but there has 
          been significant progress in tracking air departures
    There has long been considerable uncertainty about how many of 
those living out of status in the United States initially entered the 
country on legal visas. Demographers at the old Immigration and 
Naturalization Service estimated that 41 percent of the illegal 
immigrant population had entered legally but then overstayed non-
immigrant visas. That 40 percent figure is the one still most commonly 
cited. A 2002 study by Douglas Massey and others based on survey data 
produced a similar estimate that 42 percent of the illegal immigrant 
population had overstayed a visa. The Pew Hispanic Center in 2006 
estimated that about 45 percent of the illegal immigrant population was 
overstayers.
    These are only estimates, however, because the Government still has 
no fully reliable method for tracking those who overstay. Everyone 
entering the United States on a nonimmigrant visa is required to fill 
out a form I-94 Arrival/Departure record, or an I-94W for visitors from 
Visa Waiver Program (VWP) countries. When an individual is inspected by 
a Customs and Border Protection (CBP) officer at the arriving airport 
or at the land border, the bottom third of the form is detached and 
given to the traveler. That departure record is supposed to be returned 
to the airline or shipping agent upon departure, or to Mexican or 
Canadian officials for land border exits. Those departure stubs are 
then matched against arrival records as part of DHS's Arrival and 
Departure Information System (ADIS) created in 2002 to help monitor 
visa overstays. In practice, however, matching is well short of 100 
percent for a variety of reasons, including lost stubs, fraud, failure 
by airlines to collect the forms, individuals changing their visa 
status after they arrive in the United States, or individuals entering 
by air and leaving by land.
    Congress first legislated the creation of a comprehensive entry-
exit system to track visa overstays in 1996 as part of the Illegal 
Immigration Reform and Immigrant Responsibility Act (IIRIRA). As I 
detail in my book, The Closing of the American Border: Terrorism, 
Immigration and Security Since 9/11, that requirement was strongly 
resisted by State and local governments and businesses along the land 
borders with Mexico and Canada, which feared that an exit tracking 
system would create costly delays and damage cross-border travel and 
trade. Among the opponents of the 1996 provision was Tom Ridge, then 
the Governor of Pennsylvania. Partly as a result of such opposition, 
the scheme never made it past the pilot stage.
    Since the 9/11 attacks, Congress has mandated and the 
administration has pursued the creation of a comprehensive entry-exit 
system in which the identity of arriving and departing travelers would 
be verified through biometrics. On the entry side, the DHS has 
fulfilled this mandate by establishing the United States Visitor and 
Immigrant Status Indicator Technology (US-VISIT) Program at all 
international airports, and at nearly all land border ports of entry. 
Through US-VISIT, CBP officers collect fingerprints and photographs for 
all arriving overseas travelers. At the land borders, however, the 
entry system exempts both Mexicans and Canadians, which means that only 
third-country nationals are enrolled in US-VISIT when they enter the 
country via land. This has been a practical necessity. Given the volume 
of daily crossings at the land borders--about 300 million land 
inspections occur each year, down from more than 400 million a decade 
ago--taking fingerprints from all arriving travelers would be 
impossible without unacceptable delays to cross-border commerce and 
movement of people. Instead, DHS has moved forward with the Western 
Hemisphere Travel Initiative (WHTI), which requires secure 
documentation such as passports, enhanced driver's licenses or trusted 
traveler cards for cross-border travel. The WHTI is still in the 
process of full implementation, but the initial indications are that 
the requirement has produced substantial improvements in document 
security with little or no disruption to the flow of cross-border 
travel.
    Efforts to establish an exit system have faced greater hurdles. The 
most recent Congressional deadline for establishment of a biometric 
exit system from U.S. airports passed June 30, 2009 with no system 
deployed, though pilot programs have tested different alternatives. The 
administration published a proposed rule in April, 2008 that would 
require the airlines to collect and transmit to DHS the fingerprints of 
departing foreign nationals leaving the United States. But the airlines 
have pushed back strongly, and are opposed to absorbing the costs of 
the new system or to finding themselves in the middle of contentious 
disputes over privacy. DHS has done several pilots on biometric exit. 
From 2004 to 2007, the Department carried tests at a dozen airports 
with kiosks that required travelers to present themselves for exit. The 
technology was successful but compliance rates were low. Last year, DHS 
undertook two additional pilots. In Detroit, CBP officials were 
deployed to departure gates to record fingerprints of departing foreign 
nationals. In Atlanta, Transportation Security Administration (TSA) 
officials collected biometrics at the TSA check-in points. In both 
cases the pilot tests showed that the technology was adequate and that 
traveler delays were minimal, but both tests required intensive use of 
Government personnel which would be costly to replicate at all 
international airports. No airline has yet agreed to participate in a 
pilot test.
    Despite the difficulties in meeting the Congressional mandate for a 
biometric entry-exit system, DHS has made considerable progress in 
improving the tracking of departures from U.S. airports through the use 
of passenger manifest data, which is entered into the ADIS database. 
The collection and use of such data is one of the great success stories 
of the post-9/11 DHS. Immediately following the terrorist attacks, one 
of the highest priorities for CBP was to begin collecting from all 
foreign airlines advanced information (including name, nationality, and 
passport number) on all incoming passengers. That data has been vital 
in helping DHS to identify passengers who should be kept off planes 
entirely (the ``no-fly'' list), those on terrorist watch lists who 
require intense scrutiny, and others who should be pulled aside for 
secondary screening when they arrive in the United States.
    Since February, 2008 DHS has also required airlines to transmit the 
same passenger manifest information on passengers departing from the 
United States. Compliance with this requirement is in the range of 99 
percent, according to DHS officials. That has allowed the Department to 
match up passenger data for arriving and departing passengers, giving 
DHS a much more complete picture of whether individual foreign 
nationals are departing before their visas expire.
    The biggest success in this regard has been the VWP, which accounts 
for the majority of overseas travel to the United States. In November, 
2008, then-DHS Secretary Michael Chertoff certified that DHS had met 
the Congressional requirement to match positively the identification of 
97 percent of foreign nationals departing the United States by air. 
That system continues to improve as airlines have enhanced their 
collection and dissemination of passenger manifest data.
    There are certainly limitations in using manifest data for tracking 
overstays. A traveler who arrives by air could leave over the land 
borders, for example, and not be traced. Or a dual-national could enter 
the country on one passport and leave on another. Given those 
possibilities, it is difficult for DHS to conclude with certainty that 
a particular traveler who has failed to return home in time has in fact 
remained in the United States in violation of his or her entry terms. 
The Government Accountability Office has pointed out these and other 
shortcomings in the methodology used by DHS to meet the 97 percent 
match rate.
    These are real issues, and if identifying visa overstayers were a 
critical matter for protecting the United States against future 
terrorist attacks, that uncertainty would be an unacceptable risk. But 
that is not the case.
   overstay tracking is primarily a tool for managing and enforcing 
immigration laws, not for preventing or discouraging terrorist attacks. 
     there are more effective tools available for curbing illegal 
                              immigration
    The initial post-9/11 impetus for tackling the issue of overstays 
was the fear of another terrorist attack. In particular, some in the 
Justice Department seized on the fact that several of the 19 hijackers 
in the plot had overstayed tourist visas and were thus in the United 
States unlawfully at the time of the attacks. Significantly, three of 
the hijackers had been stopped for traffic violations when they were 
living illegally in the United States, including the pilot Ziad Jarrah 
who was cited for speeding just 2 days before the attacks. If the 
information that those individuals had overstayed visas had been 
available to local law enforcement officials, in theory several of the 
hijackers might have been detained and deported, potentially disrupting 
the 9/11 plot.
    In response, in September, 2002 the Justice Department launched the 
National Security Entry-Exit Registration System (NSEERS), sometimes 
called Special Registration. The program requires that all males 
between the ages of 16 and 45 from roughly 2 dozen countries considered 
as potential terrorist risks, as well as selected others, be routed 
through secondary screening and registered upon arrival in the United 
States. Those admitted to the United States on nonimmigrant visas under 
NSEERS can only leave the United States through designated airports and 
land border facilities at which special exit facilities have been 
established. The idea was to establish a functioning entry-exit system 
for a small subset of travelers considered higher risk, and one that 
would allow for law enforcement officials to be alerted to visa 
overstayers. That system remains in place today.
    The practical limitations of using overstay data as a terrorist 
tracking tool far exceed the potential benefits, however. Why?
    First, the fundamental challenge with regard to foreign-based 
terrorists is to keep them out of the United States in the first place. 
Quite simply, those who come to the United States to carry out a 
terrorist attack are unlikely to leave. Congress and the administration 
have therefore correctly put priority on improving entry screening 
systems--including visa screening, the US-VISIT entry procedures, 
advanced passenger information and passenger name records, the creation 
of the Electronic System of Travel Authorization (ESTA) for VWP 
countries, and international data sharing on lost and stolen passports. 
Those are the systems that need to be made as nearly foolproof as 
possible. The near-miss Christmas bombing showed both the strengths and 
continued problems that remain in the entry systems. CBP analysts had 
identified Omar Farouk Abdulmutallab as someone deserving extra 
scrutiny while his flight was en route to Detroit. Unfortunately that 
same judgment needed to be reached earlier, before he boarded the 
plane.
    Second, Immigration and Customs Enforcement (ICE) is far short of 
the resources that would be necessary to routinely track down, arrest, 
and deport visa overstayers. Under the Secure Communities program, ICE 
has rightly put its focus on identifying and deporting illegal 
immigrants who also have criminal records, not on trying to arrest and 
detain all unauthorized immigrants. If the rough estimates of visa 
overstays are correct, there may be as many as 4 or 5 million illegal 
immigrants who are visa overstayers, requiring that there be some 
priorities set in deploying limited ICE resources to track and arrest 
such individuals.
    Third, and more plausibly, DHS could routinely make information on 
visa overstayers and other visa violators available for local law 
enforcement officials through the FBI's National Crime Information 
Center (NCIC) database. That would allow for overstayers to be 
identified through routine traffic stops and other encounters with 
local police who had been authorized to check for immigration 
violations under the 287(g) program. But that would still raise the 
issue of limited ICE resources to detain and deport those individuals, 
and would further expand the 287(g) program, which has been resisted by 
most local police forces as potentially interfering with their 
fundamental mission of maintaining peace and security in their 
communities.
    Some will point to the recent case of Hosam Maher Husein Smadi, a 
19-year-old Jordanian visa overstayer who was accused of attempting to 
blow up a Dallas office tower last September. The issue of whether an 
exit tracking system might have stopped him received front page 
treatment in the New York Times last October because Smadi was pulled 
over by a sheriff in Ellis County, Texas for driving with a broken 
taillight just 2 weeks before the attempted bombing. Critics have 
argued that if the evidence that Smadi was a visa overstayer had been 
available to the sheriff, Smadi would have been detained and handed 
over to ICE for removal. Instead he was jailed overnight and released. 
But given the circumstances of the case, that claim does not hold up to 
scrutiny. Under the improved information-sharing arrangements put in 
place since 9/11, the sheriff was able to learn immediately that Smadi 
was the subject of an FBI investigation. Indeed, it appears that the 
FBI ordered Smadi to be released. The attempted bombing of the Dallas 
skyscraper turned out to be a sophisticated sting operation mounted by 
the FBI; had Smadi been held on immigration charges by local police, 
the sting would have been disrupted and Smadi would potentially have 
faced only deportation rather than criminal terrorism charges.
    The limitations of overstay tracking as an effective 
counterterrorism tool have long been recognized by Congress. For 
instance, a Senate Judiciary Committee report on 1997 legislation that 
would have exempted the land borders from an automated exit system 
stated the following:

``The Committee is keenly aware that implementing an automated entry-
exit system has absolutely nothing to do with countering drug 
trafficking, and halting the entry of terrorists into the United 
States, or with any other illegal activity near the borders. An 
automated entry-exit control system will at best provide information 
only on those who have overstayed their visas. Even if a vast database 
of millions of visa overstayers could be developed, this database will 
in no way provide information as to which individuals might be engaging 
in other unlawful activity. It will accordingly provide no assistance 
in identifying terrorists, drug traffickers, or other criminals.''

    Stewart Baker, the former assistant secretary for policy at DHS in 
the George W. Bush administration, has rightly said that an exit system 
is ``an immigration accounting system. It's less about safety and more 
about immigration record-keeping.''
    So does this mean that the United States can do nothing to 
discourage individuals from overstaying their visas and remaining 
illegally to live and work in this country? Not at all.
    Indeed, under the current system, enforcement against visa 
overstayers has increased significantly. The primary enforcement tool 
for penalizing visa overstayers is to deny them re-entry to the United 
States should they attempt to return. Even with the limits of the 
current exit tracking system through the I-94s and passenger manifest 
data, the number of individuals denied visas or stopped from re-
entering the United States has increased significantly each year. 
Congress already has strong laws on the books that penalize visa 
overstayers. Under IIRAIRA, those who overstay a visa by more than 6 
months and then depart are barred for 3 years from returning to the 
United States. Those who overstay by a year or more are barred for 10 
years. Indeed, the real problem with the current implementation of 
IIRAIRA is not lack of penalties, but the need for greater flexibility 
in implementation to ensure that people who inadvertently fall out of 
status are not wrongly barred from returning to the United States.
    The effort to prevent overstays is already one of the primary 
missions of State Department consular officers. In fiscal year 2009 
nearly 2 million out of 7.7 million visa applicants were refused, most 
because the consular officer suspected they would overstay their visa. 
Over the past year, all State Department consular officers have 
acquired access to the ADIS database, which allows them to do a special 
query to determine if the visa applicant has been identified by DHS as 
a visa overstayer. The State Department will soon be able to deploy 
ADIS so that the overstay information automatically appears on the 
screen of each consular officer during the visa adjudication process. 
As travelers become aware of this capability, the deterrent effects for 
potential visa overstayers will grow.
    What about those who remain in the United States and make no effort 
to return home? Here, the tools should be the same ones that can be 
used to discourage any sort of illegal immigration. With respect to 
enforcement of immigration laws, there is no reason to treat visa 
overstayers differently from other unauthorized migrants. Their mode of 
entry may have been different, but otherwise they are the same as an 
illegal immigrant who crossed between the ports of entry. Indeed, 
efforts by the State Department and CBP to improve entry screening 
before or at the ports of entry are largely analogous to efforts by the 
Border Patrol to strengthen enforcement between the ports of entry. The 
most effective interior enforcement tool is to deny jobs to 
unauthorized immigrants, and the E-Verify system shows promise here 
despite its growing pains. But enforcement should coupled with a 
comprehensive overhaul of immigration laws that includes reforms to 
create new legal paths for those who wish to live and work temporarily 
or permanently, and an earned legalization program that would allow 
many unauthorized migrants (including visa overstayers) to earn to 
right to remain in the United States. The Independent Task Force on 
U.S. Immigration Policy, which was chaired by Jeb Bush and Mack McLarty 
and for which I served as project director, makes a series of 
bipartisan recommendations for reforming the U.S. immigration system 
along these lines.
 any new measures to identify visa overstayers should be done in ways 
   that do not discourage lawful travel to the united states, which 
     benefits both the u.s. economy and american diplomatic efforts
    The recently released DHS Quadrennial Homeland Security Review 
states that: ``Secure, well-managed borders must not only protect the 
United States against threats from abroad; they must also expedite the 
safe flow of lawful travel and commerce.'' It sets out three central 
goals for U.S. policies to protect the homeland: Security against 
terrorist and criminal threats; resilience to allow for rapid recovery 
in the event of attacks or natural disasters; and customs and exchange, 
expediting and enforcing rules for lawful trade, travel, and 
immigration.
    One of the successes of the US-VISIT entry program is that it has 
been implemented with little disruption to the entry of lawful 
travelers into the United States. The program was carefully piloted, 
and then rolled out initially for visa travelers when it became clear 
that it was possible to capture two digital fingerprints rapidly for 
each traveler. That success allowed for the later expansion to visa 
waiver travelers, and then to the more recent capture of ten 
fingerprints rather than two, which increases accuracy and improves 
security. Each step was taken by DHS only when it became clear that 
security enhancements were possible without significant disruption to 
lawful travelers. The carefully negotiated agreements with the European 
Union that resulted in the sharing of passenger information and the 
creation of ESTA were similarly implemented with minimal impacts on air 
travelers. The WHTI at the Northern and Southern borders and for 
Caribbean air and ship travel is also improving security with little or 
no negative impact on cross-border flows.
    The same cannot be said of some of the other border security 
measures enacted following the 9/11 attacks. The additional scrutiny of 
visa travelers under the Visas Condor and Visas Mantis programs, for 
example, contributed to a sharp drop in visa travel to the United 
States for several years, with the number of visas issued dropping from 
over 7 million in 2000 to fewer than 5 million by 2003. As recently as 
last year, long delays continued to plague visa applicants from China, 
India, and Russia who were working in technology fields because of the 
National security reviews required for these individuals.
    The impact was especially acute with NSEERS, which has proved 
highly burdensome to travelers from the targeted 2 dozen countries. 
Travel to the United States from these countries remains sharply 
depressed at roughly 60 percent of pre-9/11 levels. The number of visas 
issued for Pakistanis, for instance, was 88,000 in the year 2000; last 
year it was just 33,000. From Indonesia the drop has been from 70,000 
to 42,000. These are the very countries where the battle for hearts and 
minds is being fought, and where the United States should be 
encouraging more people to see this country through their own eyes 
rather than through the distortions of local media.
    While travel to the United States had partially rebounded before 
the current recession, the United States has lost ground as a 
destination for international travelers. The U.S. travel industry has 
estimated that an additional 68 million visitors would have come to the 
United States over the past decade if it had simply kept pace with 
global long-haul travel trends.
    In considering the creation of a biometric exit system, then, both 
the Bush and Obama administrations should be praised for proceeding 
cautiously to ensure than any new measures do not unduly discourage 
lawful travel. The premature rollout of an exit system at the land 
borders in particular could have extraordinarily negative consequences 
for cross-border travel and trade with Mexico, the largest and third-
largest U.S. trading partners respectively. The last detailed 
evaluation of the land border exit option by the Government 
Accountability Office, in December 2006, concluded that, given current 
technologies, a biometric exit system would require a costly expansion 
of land port facilities and would produce major traffic congestion. 
This would come even as major improvements are still needed in the land 
border entry facilities, though funds provided through the stimulus 
package are beginning to address some of those needs.
the costs of deploying of a full biometric exit capability as currently 
        envisioned by congress are likely to exceed the benefits
    The central philosophy underpinning DHS since its creation has been 
the idea of risk management, that the costs of new security measures 
should be carefully weighed against the expected benefits. By any 
measure, deployment of a biometric exit system will be expensive. While 
DHS has not released official estimates, biometric exit in the air 
environment is certain to run into the billions of dollars, 
particularly if CBP or TSA staff must be used to capture the 
biometrics. A land border exit system would be more expensive still, 
and the potential for disruption of two of the largest cross-border 
trade and travel relationships in the world is significant.
    Given the costs and difficulties associated with biometric exit, 
Congress and the administration should take a serious look at whether 
further accuracy in tracking visa overstays could be realized through a 
combination of biographic and biometric means rather than a pure 
biometric approach. The use of passenger manifest data has demonstrated 
the promise of this approach in the air environment. Congress and the 
administration would do well to build on this approach rather than 
continuing to hold out for a costly biometric exit system that would 
bring only minimal gains in terms of additional accuracy. Unless a 
fully functioning biometric land exit system can also be constructed, 
biometrics in the air environment will still not allow the United 
States to know with certainty if an individual has overstayed a visa 
and remains illegally in the United States. As such, biometric exit at 
airports would be a very costly addition with very small benefits in 
terms of additional information on overstayers.
    At the land borders, a biographic approach also shows greater 
promise. The new rules under WHTI have required American, Mexican, and 
Canadian travelers to acquire secure documents that allow for accurate 
records of who is crossing the border into the United States and, 
potentially, who is leaving. Everyone exiting across the land borders 
of the United States is also entering either Canada or Mexico. The 
administration should explore the possibility of data sharing with both 
countries regarding their inbound travelers. In the case of Canada, 
there have been on-again, off-again discussions between the two 
countries sharing data, so that Canada would inform the United States 
on its border entries and vice-versa. There are certainly difficult 
impediments to such a negotiation. Canada does not currently have the 
same document entry requirements as the United States, and would have 
to move forward on those. The fact that four Canadian provinces have 
already adopted WHTI-compatible enhanced driver's licenses would make 
such a transition reasonably easy for Canada. It would also be easier 
to negotiate an agreement that was initially limited to third-country 
nationals, assuaging Canadian concerns about sharing data on their own 
citizens. If the United States continues to insist on a biometric exit 
system, however, there is little prospect of success in such a 
negotiation, since Canada is unlikely to establish biometric entry 
requirements at its land borders.
    If such a deal cannot be negotiated, there continue to be promising 
developments in RFID technology that could allow for a remote scan of 
the identification documents of cross border travelers as they are 
leaving the United States. WHTI-compliant documents are already RFID-
enabled, so the building blocks are in place for a system that could 
identify travelers departing by car through remotely-read documents, 
without requiring drivers to stop and give a fingerprint or other 
biometric upon exiting the land borders. While there are still hurdles 
to overcome, such a system shows particular promise for the southwest 
border, where cooperation with the Mexican government poses even 
greater obstacles than on the north border.
                               conclusion
    To conclude, my answer to the question posed by this hearing--Can 
visa overstays be eliminated?--is ``not entirely,'' at least if there 
is any reasonable calculation made of costs and benefits. But there has 
already been a great deal of progress over the past several years, and 
DHS and other Federal agencies should be encouraged to build on that 
progress rather than investing heavily in the creation of a new 
biometric exit capability.
    Thank you, and I look forward to responding to your questions.

    Chairman Thompson. I thank all the witnesses for their 
testimony.
    I remind each Member that he or she will have 5 minutes to 
question the panel.
    I now will recognize myself for questions.
    I guess the point, to start with, is, according to the 
testimony of the witnesses, there are some of the number of 
illegal people here in this country--40 percent that--I would 
assume that is around 4 million. That is the kind of the number 
we are talking about? Okay.
    Can you describe for me, Mr. Beers, how the Department 
proposes--and you outlined those three issues--is that 
realistic given the budget that we have been submitted by the 
Department?
    Mr. Beers. Sir, with respect to the improvements that we 
have instituted in the system, I think that they are all within 
the budget capabilities of our current and requested budgets 
for US-VISIT. If you are asking the larger question with 
respect to biometric air exit, I can go on, on that particular 
issue.
    Chairman Thompson. Well, I think the question is framed so 
that we need to ensure a system that minimizes, if not 
eliminates the number of overstays, and whether or not the 
budget that is requested would allow that to occur--looking at 
all the issues, whether it is the air exit or whatever.
    Mr. Beers. Yes, sir.
    With respect to the US-VISIT contribution, independent of 
the issue of biometric air exit--with respect to the US-VISIT 
contribution to the identification of overstays, which is what 
our role in this process is, we believe that the budget that we 
have currently, and the budget that we are requesting, is 
adequate to allow us to identify the individuals who overstay, 
based on the entry data and the type of visa that they have, so 
that we can flag any individual that we do not have matching 
data, with respect to the exit information that we currently 
receive, which is biographic information. That allows us to 
flag those individuals and to provide to ICE those individuals 
that fall under the National security criteria that ICE has 
given us to pass that information, in detail, to them.
    We, in addition to simply matching that biographic 
information that we receive at exit against the entry 
information, also look at other information, other databases, 
to provide any other assistance that we might be able to, on an 
individual, when we pass that information to ICE, so that as 
much of the preliminary data collection as possible can be done 
by US-VISIT, rather than giving ICE simply a name and a visa 
number.
    That is the information sharing that we have agreed upon 
with ICE.
    Chairman Thompson. Thank you very much.
    Mr. Morton, can you provide for the committee--of those 
names that you referred to for overstay to--what percentage of 
those individuals do we apprehend?
    Mr. Morton. A very, very small fraction.
    Chairman Thompson. Why is that?
    Mr. Morton. A number of reasons.
    First of all, what we get from US-VISIT--they have done 
their best to do some initial screening. But a great deal of 
further screening is needed to be done to see whether or not 
the people, in fact, left; whether or not we have an address to 
even start an investigation.
    Then, there is a very real challenge for us of competing 
enforcement requirements: Do I devote resources to trying to 
investigate whether somebody has overstayed their visa, for 
example, in Orlando? Or do I put those same resources to the 
identification of an absconder; to assist the Border Patrol 
with removing somebody who was apprehended at the border; or to 
go to the local jail? Yes, sir?
    Chairman Thompson. Thank you.
    Mr. Skinner, you have heard the existing system of how we 
do and manage overstays. I know some of your information is a 
little dated. But based on what you heard, can you provide the 
committee with what recommendations, or any, that you have had, 
to the Department?
    Mr. Skinner. What we have seen since we issued our report 
in 2005 is a buildup of CEU. When we did our audit, they were a 
maturing organization. Now, we think they have matured. They do 
have policies and procedures in place. They do have better 
access to IT systems. So we are seeing improvements.
    We are also seeing that we are not going to be able to--
because of resource issues--and I don't know if we could ever 
have sufficient resources to address all of the overstays. But 
what we need to do, and what I think CEU is doing--CEU--the 
Compliance Enforcement Unit in ICE--is targeting those that are 
the biggest threat to our society--those that are criminals; 
those that have the potential of being terrorists; and those 
that are fugitives.
    I think until we could have a--and I don't think we ever 
will have all the resources needed to go after all overstays--
and until we can do a better job at that, I think what we are 
doing now, in ICE and in the CEU, the Compliance Unit, is 
focusing on those that are the biggest threat. I think we need 
to continue to do that. We need to continue--invest in those 
operations.
    Chairman Thompson. Thank you very much.
    I now recognize the Ranking Member of the full committee, 
the gentleman from New York, Mr. King, for questions.
    Mr. King. Thank you, Mr. Chairman.
    I will direct this question to Mr. Beers and Mr. Morton, 
and, you know, give you as much time as you need to answer it.
    I mentioned the, you know, biometric entry-and-exit system, 
which the 9/11 Commission said would be an effective tool in 
fighting terrorism. Mr. Alden seems to suggest that it is not 
effective; it is more for controlling immigration than it is 
for being a tool against terrorism.
    Since the Department is not funding the program this year, 
has the Department made a decision as to how worthwhile it is 
to pursue it? Have you decided not to pursue it? How do you 
evaluate it in the hierarchy of tools combating terrorism?
    Chairman Thompson. To the extent you could--if you could 
pull the mic as close to you as possible, it, I think, would 
help everyone. Thank you.
    Mr. Beers. Congressman King, the Department has not made a 
final decision on biometric air exit. The study which was 
commissioned in the past administration was completed in July 
of the past year. The review of the pilot study, which focused 
on collection of biometric information at the screening point 
of entry into the concourse, and at the gate--the first by TSA, 
and the latter by CBP--that review of the pilot study was 
completed in the September time frame. It was, then, reviewed 
in terms of what the options looked like.
    As a result of that review, another option was added to the 
series of choices. That review and costing estimates was done 
by the end of December. Secretary Napolitano reviewed that 
initial review, and asked a series of questions which are now 
complete. The second review by her is on her calendar. We 
expect to have an answer to that question.
    But short answer is, ``No, we are not opposed to it.'' The 
reason that there was not any funding in the fiscal year 2011 
budget was that the fiscal year 2011 budget was prepared in a 
time sequence which did not allow us to provide an accurate 
budget estimate for a biometric air exit system.
    We do have $50 million that is available, which could start 
an initial operating capability program based on what the 
decision is, and when the rule that would govern that decision 
is in a position to be implemented.
    So we can begin that based on the decision process sometime 
at the end of this fiscal year, or the beginning of next fiscal 
year. We would, then, if--we would, then, be requesting money 
in the fiscal year 2012 budget to go to full operating 
capability.
    Mr. King. Now, you have enough real-life problems to deal 
with. But in the theoretical sense, assuming this system could 
work, do you believe it is an effective tool against terrorism?
    Mr. Beers. I think it would add to our ability to know who 
had left the country, with a higher degree of confidence than 
the biographic information that is currently available.
    Folks can argue about how much, how little. But there is 
not a question that it would add to the certainty of the 
identity of the people who left the country under this system.
    Mr. King. Mr. Morton, do you have any comment?
    Mr. Morton. I agree with that. I take some slight quarrel 
with Mr. Alden on a stark division between National security 
and general immigration enforcement, when it comes to US-VISIT. 
I do think it is an important National security tool. I agree 
that it shouldn't be overstated that it is a--the sort of sole 
solution. But with regard to specific cases, it is very 
important. That is obviously how we orient the CEU.
    In addition, I think that general immigration enforcement 
is good National security work. Now processes and procedures 
that people exploit to come to the United States unlawfully can 
be exploited by people with more nefarious intentions. It is 
important to make sure that our system has credibility to keep 
those folks out.
    Mr. King. Mr. Morton, I hate to ask you a question with 20 
seconds to go.
    I would just say that, I think, one thing that we have 
learned on this committee over the last 6, 7 years, is that 
there is no silver bullet. There is no one technique or tactic 
that is going to stop terrorism. But we believe in multiple 
layers of defense. I would think that the biometric entry-and-
exit system would be another layer.
    So, I mean, you go to a doctor--they take various tests. 
Maybe there is no one test that shows what you have. But look 
at all of them, they can come up with a diagnosis. It would 
seem to me that this is an essential layer to be used in the 
struggle against terrorism.
    But I would ask your comments now.
    Mr. Alden. Yes, I would just briefly say I agree with you 
on the notion of a layered approach. But I think the most 
important layers are the entry layers. So the question, here, 
is, first, ``What would the resource costs be for deploying the 
sort of system we are talking about?'' The problems at the land 
border dwarf those in the air environment. So there is just a 
fiscal cost of doing it.
    The second cost is--what is the cost going to be in terms 
of disruption of lawful travelers? So that means this has to be 
a very efficient system that you can carry out, without making 
it so difficult for people traveling to the United States, that 
they don't want to come here anymore.
    So if you could do that--if you could do it within limited 
cost; if you could do it in a way that did not harm ordinary, 
lawful travelers, then I would be more enthusiastic about it. I 
don't think we are there yet. It is not that we might not get 
there down the road. I just think there are other higher 
priorities at the moment.
    Chairman Thompson. Thank you very much.
    The Chair will now recognize other Members for questions 
they may wish to ask the witnesses.
    In accordance with our committee rules, I will recognize 
Members who are present at the start of the hearing, based on 
seniority on the committee, alternating between Majority and 
Minority. Those Members coming in later will be recognized in 
order of their arrival.
    The Chair now recognizes the gentleman from Texas, for 5 
minutes, Mr. Cuellar.
    Mr. Cuellar. Mr. Chairman, thank you very much for having 
this meeting.
    I guess, when we look at the two broad classes of aliens 
that are issued visas, you have the immigrants and the non-
immigrants. I guess, to address this issue, you are looking at 
resources--and I am trying to follow the line that the Chairman 
was just following--the resources; technology and personnel; 
and, then, the strategy as to what sort of priority do you 
put--and I guess the most violent individuals is the priority 
that we are looking at right now.
    But on the technology part, isn't there something besides 
using the biometric system at the border?--and all of us on the 
border were concerned about putting those huge lines there. But 
there has got to be a way of using technology to track those 
individuals.
    If somebody is supposed to be there, let us say--a visa--
how long is visa usually--or student visa? Any kind--business 
visa, student visa--or, generally speaking, Mr. Morton, what is 
it?
    Mr. Morton. A tourist visa, for example--more typically, 
30, 60, or 90 days.
    Mr. Cuellar. Okay.
    Isn't there something that allows you--to prompt you when 
that time comes out--that we can use? I mean, we don't have to 
develop a fancy technology. I am sure there is something 
available right now that can prompt you. Even if you asked 
those individuals--``Hey, call,'' or do something. If you don't 
get that--and I know you don't need to have ICE agent to do 
that work. You can have civilians to do that work and then give 
it to the ICE agents--to the deportation folks who go get them 
and find them.
    But isn't there something that we can look at, using the 
technology--and, keep in mind, that there are--a large number 
of people have been here for a long time. At least, before they 
set their roots--that they have set their roots already for a 
long time--at least start that system when the new folks are 
coming in and staying--isn't there something that is available 
that we can use at this time?
    Mr. Morton. I think that is an excellent question. I think 
you have touched on the promise of US-VISIT, in a nutshell. I 
will let Mr. Beers sort of get into the details. I think there 
are some things that do have some real promise from a 
technology perspective. Just the way we treat visa-waiver-
program applicants versus actual visa-holders holds promise.
    Right now, for the visa-waiver program, before you even 
come to the United States, you go on-line, through a program 
known as ESTA. You provide a great deal of information to the 
Government, all automated, in fields that we determine. As a 
result, we have a great deal more information about you, in 
case you don't follow the rules.
    With your visa, you fill out your I-94 on the airplane, and 
that is where it can be a bit of a challenge for ICE. Even with 
the very best screening at US-VISIT, if all you put down on 
that form is, ``I am staying at the Marriot in--in Orlando,'' 
it is going to be real tough for us 60 days later, to try to 
find you, and----
    Mr. Cuellar. Mr. Morton--I mean, if you let something get 
cold--and I think the longer you give it time, you know very 
well, the harder it is. Again, I am saying--at least looking 
for some sort of priorities to address that.
    Mr. Chairman, I am going to ask again if all four of them 
could give us--following your line of questioning, Mr. 
Chairman--if you can give us some ideas, because we need to 
think outside the box on this. I agree we have got to set the 
strategies, and all that. But there has got to be some systems 
and protocols and technology that we can use right now.
    Now, if you can ask, Mr. Chairman--a certain period of 
time--I will let you decide on that time--if you all can submit 
those ideas following--the other question I had, before my time 
is coming over--I am looking at an AP story. One of my former 
colleagues in the State legislature, Senator Eddie Lucio of 
Brownsville, is talking about--I think the State prisons has 
about 11,400 foreign nationals that--and I understand the 
argument. Some are rapists. Some are murderers. Maybe some of 
them are there for a lesser time of period. I am talking about 
prison.
    I would like for you to help me respond to my former 
colleague at the State legislature. I understand. I don't want 
to let out the rapists and the murderers. I am in full 
agreement. But are there any folks that you all can screen, 
and--because they are going to be coming up--the State 
legislature is going to come up with that. I can tell you--I 
have served in the State legislature 15 years--about 15 years. 
I know what my colleagues are going to do.
    Mr. Morton. Mr. Cuellar--and the short answer to your 
question is, ``Yes,'' we do receive, from State authorities, 
early releases. That you have already noted--one of the 
important issues is that, when we receive somebody, we receive 
them for purposes of removal, so that to the extent that people 
are being released to us, they won't complete the full range of 
their sentence. But we already accept early releases from a 
number of States. I would be happy to help you with Texas.
    Mr. Cuellar. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the other gentleman from Texas, 
Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    First of all, Mr. Skinner, I appreciated what you said in 
your report about the problem being, I think, twofold--limited 
resources that are not efficiently used--and I appreciated what 
Mr. Beers said are the three steps that they are going to take 
to try to increase that efficiency. I know Mr. Morton is 
working on it as well. I visited with him personally, and know 
that he is trying hard to implement some of those proposals.
    What I would like to do, first, is get a real sense on the 
extent of the problem. Mr. Morton said that he thought 40 
percent of the people in the country illegally were visa 
overstayers. Mr. Skinner, you have said you thought it was 4 
million people. I assume the number you are using, therefore, 
is about 10 million people in the country illegally? Is that 
correct?
    Mr. Skinner. There are studies that suggest that there 
could be between 10 million to 11 million people in this 
country illegally.
    Mr. Smith. Ten million to 11 million.
    Now, as I understand it further, those are individuals who 
are in the country full-time, as opposed to individuals who are 
in the country for a few days or a few weeks or a few months. 
If you use that snapshot of a figure as to how many people are 
in the country illegally today, for example, it would be closer 
to 20 million. If that is the case, would the number of visa 
overstayers be closer to 8 million than 4 million?
    Mr. Skinner. I wouldn't suggest that it was that high. 
Figures that I am using are just based on studies----
    Mr. Smith. Right.
    Mr. Skinner [continuing]. That have been generally 
accepted----
    Mr. Smith. Okay, well----
    Mr. Skinner [continuing] By the Department as----
    Mr. Smith. Well----
    Mr. Skinner [continuing]. Reasonably accurate.
    Mr. Smith. Right. Again, it is how you define who is in the 
country illegally or not.
    Mr. Morton, you were, I think, nodding in agreement with 
me. Do you agree with the fact that the ``10 million or 11 
million people'' refers to individuals who are in the country 
full-time?
    Mr. Morton. That is right--the 10.8 million estimate.
    Mr. Smith. Therefore, if we were to count people who were 
in the country not full-time, but part-time, the figure could 
be closer to 20 million people?
    Mr. Morton. The figure would be larger. I, frankly, don't 
know----
    Mr. Smith. Therefore, the number of visa overstayers might 
be larger than 4 million people as well?
    Mr. Morton. It could be in the range. It could be less. It 
could be more. But, yes. I would note--I mean, the ranges on 
visa overstays are anywhere from a third--the GAO report--to as 
much as 50 percent. We have settled on 40 percent, which is 
roughly 4.4 million, if you accept the 10.8 million.
    Mr. Smith. Let us call it 4 million to 8 million--whatever 
the exact figure may be.
    It sounds to me--I think this may have been Mr. Beers who 
said it--that of those 4 million to 8 million people, we arrest 
500 to 600 per year. Is that accurate?
    Mr. Morton. That we arrest 600 through the US-VISIT lead--
we also have NSEERS and SEVIS and, then, the General 
Enforcement. So the 600 figure is too low. But your basic point 
of--that it is a fraction--is correct.
    Mr. Smith. The fraction is actually one out of every 8,000, 
I believe, if you use the 4-million figure. It could be one out 
of 16,000.
    Mr. Morton. It is a very small number.
    Mr. Smith. It is, obviously, a problem. We are addressing 
only a tiny, tiny fraction of it.
    This administration would be more credible in arguing that 
one explanation is that they don't have sufficient resources if 
they had actually requested an increase in resources. As you 
all know, whether it be the U.S. exit or US-VISIT--this 
administration chose not to ask for a significant increase in 
resources. Therefore, I think that that perpetuates the 
problem.
    Mr. Skinner and Mr. Morton--I think it is Mr. Beers and Mr. 
Morton--I do appreciate your acknowledging--and I realize it is 
not easy to disagree with a fellow panelist--but I was glad 
that you all at least acknowledged that the visa overstayers 
could, in fact, represent a National security threat to our 
country.
    One aspect of that that was not mentioned--and one 
explanation for that--could also be the fact that visa 
overstayers might become radicalized and, therefore, become 
terrorists after they have already entered the country. Surely 
those individuals--and we have seen examples and heard of 
examples of those individuals today, from 9/11 on--are examples 
of individuals who have become radicalized, are terrorist 
threats. Therefore, that does show the danger of having so many 
visa overstayers in this country and, in my judgment, not 
taking sufficient action to try to arrest more than one out of 
8,000, at the very conservative figure.
    I know you are trying to improve that situation. But, right 
now, the message that this administration is sending, frankly, 
is that once you get into this country, and if you don't commit 
another crime, you are basically home free. I think that that 
also sends a signal that results in an increase in illegal 
immigration, when people figure if they can get away with that 
and not get arrested again, they have passed go and are going 
to collect, sometimes, literally, a lot of money from the 
Government.
    So I hope that that is something that you all will address 
better in the future as well. I thank you for your testimony.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Pascrell, for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Chairman, in comparing 2008 to 2009, there was a 
tremendous improvement under the present administration in 
enforcement of our immigration rules, contrary to what we have 
been hearing for a full 12 months in attacks on our own 
patriotism, let alone the facts speak for themselves, whether 
you are talking about worksite enforcement or whether you are 
talking about overstay enforcement.
    I would ask all the members of this panel to examine those 
numbers very, very carefully, because they tell very different 
story than we have heard from those people who like to wave the 
flag and talk. The numbers speak for themselves.
    I won't go through them right now. But if you want me to, I 
will.
    On the issue of immigration, one fact that often escapes 
this debate, I think, is that we know that anywhere from 31 
percent to 57 percent of the illegal immigrants in this country 
entered legally. They actually got here in some legal manner, 
shape, or form. I just am curious--Mr. Skinner, do you have 
any--can you tell us how many of those folks that are caught, 
and we bring them to justice, were working? Do we have any of 
those facts?
    Mr. Skinner. I don't.
    Mr. Pascrell. Does anybody?
    Mr. Skinner. ICE may have statistics, when you put it in 
its totality.
    Mr. Pascrell. Secretary Morton.
    Mr. Morton. I don't have exact figures, but I will tell you 
that our general experience is that people who overstay, 
obviously, overstay for purposes of living here, and they get a 
job, and they are employed.
    Mr. Pascrell. This flies in the--not a right for foreign 
citizens. They should only be issued to individuals with clean 
records. All visa guidelines, especially the date of exit, must 
be fully enforced. Otherwise, our visa system will just be seen 
as a free ticket into our Nation.
    I would respond to Mr. Alden--you weren't suggesting that 
the Government--in the beginning of your statement--doesn't 
have a right to know every person who is coming into this 
country and every person that is leaving this country? You do 
believe that the Government has that right, correct?
    Mr. Alden. No question. I just think it is very difficult 
to do practically. We have to be careful that the costs are 
worth the benefits. That is my argument.
    Mr. Skinner and Mr. Alden--thank you--some people propose 
that the Department of Homeland Security should place a 
priority on worksite enforcement as a way to reduce visa 
overstays. Do you believe that this is necessary? My second 
question is: Should the Department of Homeland Security put 
more resources into improving E-Verify as part of its approach 
to addressing the many overstays that exist in the United 
States?
    Mr. Skinner. Congressman, we have not studied the issue of 
worksite enforcement. That is something that is on our radar 
screen, however. As far as ``should'' or ``should not,'' the 
Department--make that a priority. I believe the Department has 
a responsibility to enforce the laws. If the laws do, in fact, 
prohibit employers from using illegals, then I think--then we 
have an obligation to enforce those laws. Until those laws are 
changed, I think we need to pursue illegals, or the employer 
that is hiring those illegals.
    Mr. Pascrell. There were 503 on-site document audits in the 
last year of the Bush administration. In the first year of the 
Obama administration, there was 1,444 on-site document audits. 
Now, one could take this and say, ``Well, it wasn't a priority 
with the prior administration; it is a priority with this 
administration.'' The results are very interesting as to how 
many employers were sanctioned.
    The very people who don't want to look at the facts of this 
situation, and simply want to make every immigrant a criminal--
and the prior administration--they didn't go after the 
employers who hire these folks in the first place. The numbers 
speak for themselves. If we don't expose the hypocrisy, Mr. 
Chairman, who will? Who will?
    Thank you.
    Chairman Thompson. The gentleman's time is expired.
    The gentleman from Georgia, Mr. Broun, for 5 minutes.
    Mr. Broun. Thank you, Mr. Chairman.
    Gentlemen, it is good to have you all here today.
    As the Chairman and Ranking Member have identified, visa 
overstays are a huge security gap that must be closed as soon 
as possible, along with securing our borders, and the illegal 
aliens being expelled. What I found most troubling is the lack 
of actual arrests and deportations of those with visa 
overstays--those that we are aware of, as well as to those that 
are still here that we are not pursuing and not aware.
    According to Mr. Morton's testimony today, 40 percent of 
unauthorized persons in this country can be attributed to visa 
overstays. In fact, four of the 9/11 hijackers have--as it has 
already been stated--had overstayed their visas. If individuals 
such as these were able to overstay their visas without being 
caught, then who else is out there? Who else might be within 
our borders, planning to harm Americans?
    The gravity of this situation is evident, gentlemen. It is 
my sincere hope that the Department is fully committed to doing 
whatever it takes to catch those who have overstayed their 
visas; who are criminals who have broken the law.
    This leads me to my question, which is for you, Mr. 
Skinner. What recommendations do you have for improving 
overstay identification and apprehension, and deportation?
    Mr. Skinner. First is investment of resources. Second is 
establishing priorities--who are the most dangerous? Who are 
those that we need to target? We can't target everyone. We have 
to recognize that. We don't have the resources. Third is an 
investment in technology. We can do a better job of integrating 
the systems that are currently available to us across 
Government--at the Department of State, within the Department 
of Justice itself.
    We need to continue to invest in integrating those systems 
so that we can have a comprehensive database from which we can, 
then, better target those that we think need to be identified 
and located and removed.
    Mr. Broun. How about using local and State law enforcement?
    Let me tell you a little story. I have a county commission 
chairman in my district that told me about three people who had 
broken the law, were in prison, who were illegal aliens, or who 
had overstayed their visas. He called ICE and asked them to 
come pick these folks up. ICE told him, ``Just let them go, 
because we are not going to do anything about this.''
    Now, this is deplorable, as far as I am concerned. 
Utilizing local and State law enforcement to apprehend, to do 
the processing, and then deport these folks, I think, is 
absolutely critical. I just throw that out as a point.
    My next question is to you, Mr. Morton. Do you believe that 
providing DHS with more authority and control over the process 
by which visas are issued, on the front end, as Mr. Alden has 
talked about, and those that are revoked, would help reduce the 
overstay population; and if so, how so or why not? Also, if 
granted, would DHS use this authority to be tougher on those 
sponsors who overstay their visa?
    Mr. Morton. I do agree with Mr. Alden that one part of the 
solution to this problem is the best up-front screening 
possible so that we only give visas to those individuals that 
have a high likelihood of complying with the law, and that we 
get as much information up-front from these individuals--I 
would say their mobile-phone number, credit-card information--
things like that--so that if they don't follow the law, it is a 
lot easier for the agents that work for me--for the officers 
that work for me--to go and actually find the people when they 
don't comply.
    The Department has a fair amount of authority already. It 
is one that we share with the secretary of state. So I think 
much of what is needed to do a better job has already been 
provided by Congress. It is a question of improving the 
technology and improving the automated collection of more 
information up-front, screening people, ICE doing more visa 
security screening.
    The building blocks are there. It is really an 
implementation question. But in short, I do agree with Mr. 
Alden on much of that.
    Mr. Broun. Thank you, Mr. Morton.
    Mr. Chairman, I would like to make a remark about Mr. 
Pascrell's comments. I resent it, because I think that the Bush 
administration was totally wrong in not securing the borders. 
It was totally wrong in its immigration policies and not 
dealing with the illegal aliens in this country. I hope the 
Obama administration will have this as an objective. It is a 
National security issue that this committee, and you, Mr. 
Chairman, have pursued.
    The thing is, as far as I am concerned, when he points a 
finger and talks about hypocrisy--I think he needs to be very 
careful with that, Mr. Chairman. I resent his comments. He is 
totally off-base in----
    Chairman Thompson. Thank you very much.
    I wish he had been here to hear it. But we will go forward.
    Mr. Broun. I wish he had been here, too, Mr. Chairman.
    Thank you.
    Chairman Thompson. Oh, yes, he----
    [Laughter.]
    I recognize the gentleman from Missouri, Mr. Cleaver, for 5 
minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    To some degree, I want to associate myself with the 
comments of Mr. Broun, to the extent of asking--because I think 
if it is a fact we have got a problem, are ICE authorities 
authorized or instructed to tell people who--and local law 
enforcement--to release illegal immigrants or undocumented 
workers? Is that policy ubiquitously spread across the country, 
or regionally, or what----
    Chairman Thompson. Excuse me just a minute. There you go; 
all right. We want to get your time right. You got your full 5 
minutes now. Thank you.
    Mr. Cleaver. Mr. Cleaver, here is--it is not that ICE 
directs the release of people otherwise independently arrested 
by State and local law enforcement. What does happen--and it 
does happen with some frequency--is that we tell State and 
local law enforcement that we, ICE, are not in a position to 
respond to arrest and detain someone they believe is here in 
the country unlawfully. It is for the very simple reason that 
we don't have enough officers, detention space, to address the 
millions of people that are here unlawfully.
    We have to place rational priorities on the use of the 
limited resources we are provided. So, in some instances, we 
simply don't have the officers or detention space to respond to 
a particular set of individuals that State and local law 
enforcement believe are here unlawfully.
    Mr. Cleaver. If this is a significant issue, and if it is, 
in fact, a threat to the safety and security of the--of the 
public, then it seems to me that it needs to be dealt with as a 
significant issue.
    In terms of issues facing this country, where would you 
rank this issue? I am interested in all four of your comments 
in terms of the major issues facing the people of the United 
States. We don't want to talk about health care. We want to 
talk about, you know, other issues facing the country, with 
regard to security.
    Where does this issue fit in?
    Mr. Beers. Congressman Cleaver, I think that, at least from 
my own perspective of having thought about National security 
issues for the last 40 years of my life, I have to say that the 
highest priority has to be accorded to preventing weapons of 
mass destruction from being used against the United States or, 
in fact, anywhere in the world.
    With respect to the second issue of terrorism, I think that 
that--and in particular, terrorists with weapons of mass 
destruction--represent a priority National security threat to 
this country. To the extent that overstays represent, as they 
did in 9/11, a contribution to that, then it is a serious 
National security issue. But it is also a extraordinary 
challenge to identify those particular individuals, out of the 
millions of people who come to the United States every year.
    Mr. Cleaver. Do all of the others agree with that?
    Yes, sir.
    Mr. Alden. I would just add two things. I would agree with 
that. But I would--in terms of the topic of this hearing, I 
think the biggest priority in terms of terrorism and homeland 
security is better and improved entry-screening methods to keep 
out people who might harm us. We saw this in the Christmas 
bombing--the Abdulmutallab case--the breakdowns in entry 
screening.
    With respect to immigration enforcement, I think the 
improvements in worksite enforcement, the need for some kind of 
identification system that allows employers to know that the 
people they are hiring are authorized to work. I think there is 
a need for a broader overhaul of immigration laws to make those 
laws work better.
    I would put all of those ahead of completing an exit 
system, as priorities.
    Mr. Cleaver. Okay.
    The reason I raised the question--my time is about to 
expire. But, you know, we are going to hire about 16,000 new 
IRS agents to cut down on fraud and abuse in Medicare. We need 
to do that. But I am saying we need to also argue and fight for 
the kind of dollars that are needed for us to do this job, if 
it, in fact, poses a threat to the safety and security of the 
American public.
    Thank you very much, Mr. Chairman. I yield back the balance 
of my time.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from Florida, Mr. 
Bilirakis, for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. Thank you.
    First question is for Mr. Morton. Assistant Secretary 
Morton, I have been concerned about the inadequate oversight of 
student-visa issuance and compliance. There have been numerous 
examples, as you know, of individuals violating the terms of 
their student visas, including the terrorists involved in the 
1993 and 2001 World Trade Center attacks.
    Most recently, ICE disrupted visa-fraud schemes in Florida 
and in California. We must do more to ensure that terrorists do 
not use our student-visa process as a back door into our 
country. I think everyone agrees with that.
    My questions are: What is the Department doing to ensure 
that these students are properly vetted prior to obtaining 
these visas? Do ICE visa-security unit personnel review 
student-visa applications? How is the Department working with 
colleges and universities to ensure that students who receive 
the visas are showing up to class and meeting the visa 
requirements? What is the Department doing to ensure that these 
student visas--these students don't overstay their visas?
    Mr. Morton. First of all, the basic sentiments that you 
expressed, that we have to have integrity in our student and 
exchange programs--I completely agree. As you noted, we spend a 
lot of time, unfortunately, investigating and uncovering 
schools that are essentially visa-fraud mills on a fairly grand 
scale.
    To sort of note your basic concern, and to tie it in a 
little bit with what Mr. Cleaver was speaking about--from my 
perspective, it is both a National security risk--and, plus, it 
is just basic good government. I mean we shouldn't have a 
system--an immigration system, a student-exchange system, that 
is marked by lawlessness, regardless of the National security 
concerns--that there is an importance in having integrity and 
credibility in what we do.
    Very quickly, in response to your specific questions--we 
have our SEVIS program. We have dedicated analysts. We have got 
a great deal of room for improvement. We have come a long way. 
We work very closely with the academic community. We are moving 
to a new version of SEVIS. Right now, we basically track the 
certificate of eligibility, but not the student him- or 
herself. That is where we need to be--is focusing on the 
student him- or herself. So that is a big reform that is in the 
works.
    We are working with the academic community to get that 
done. I am hoping--but it is a knock-on-wood hope--that we will 
be able to make some real progress on the technological front--
that a lot of this is about the changes that we need to make in 
terms of technology, to get us to a student-specific monitoring 
and enforcement.
    We are having weekly dumps of data now. We generate a lot 
of SEVIS leads. One of the beauties of the SEVIS program is it 
is completely within ICE. We do generate a lot of leads. I 
don't want to suggest to you that we don't have room for 
improvement. We do. We need to do it both in terms of 
monitoring the individual applications from a civil immigration 
perspective--``You are not going to school; you need to go 
home''--but also from the visa-fraud mills that you mentioned 
that are a real problem.
    We have something on the order of 10,000 schools that work 
with us through SEVIS. So the number of schools is quite large. 
Then there is another, about 4,000 student and exchange-visitor 
programs that are sponsored by the State Department.
    We do screen some applications overseas, through the visa-
security unit. Again, I don't want to suggest that it is 100 
percent. We are not in every embassy. Again, we have to 
prioritize those applications that we look at. We don't look at 
every single visa application.
    Mr. Bilirakis. Okay. Thank you.
    Secretary Morton, again, I understand that through the 
Secure Communities Program, ICE has been working to deploy 
information-sharing technology to State and local government's 
law-enforcement agencies to improve their ability to identify 
criminal aliens using the 287(g) immigration law-enforcement 
authority. Will the deployment of this technology allow 287(g) 
jurisdictions to access information, including Federal 
databases, that may indicate that an apprehended alien is in 
visa-overstay status?
    Mr. Morton. The Secure Communities is a automated 
fingerprint process. You are dealing with people that are 
apprehended for criminal purposes.
    But the focus is on the fact that you are a criminal 
offender, and trying to identify your criminal history record. 
But, as part of that, we are also trying to determine your 
immigration status. So, in short, the answer is: Yes, we will 
be able to identify your immigration status. Recognize that it 
is in the context of criminal offenders, in jails and State 
prisons throughout the country.
    The immediate focus is on the fact that you have committed 
a crime. But we will be able to determine what your immigration 
status is, including whether or not you are an overstay.
    Mr. Bilirakis. Okay.
    Can you briefly explain the new memorandum of understanding 
that ICE has signed with law-enforcement jurisdictions 
participating in 287(g), and the testimony you provided last 
week in the Appropriations Committee, the Subcommittee on 
Homeland Security--that local law-enforcement officers ``must 
receive ICE approval, and articulate a connection to our 
priorities, before they arrest an alien for a civil immigration 
offense alone?''
    Is the apprehension of those who have overstayed their 
visas, regardless of whether they have committed a criminal 
offense, an enforcement priority under the 287(g) program?
    Chairman Thompson. We will allow you to answer the 
question.
    Mr. Bilirakis. Okay.
    Mr. Morton. The priorities under 287(g) are the 
identification of criminal offenders in jails, and for the 
task-force model, it is the identification of serious threats 
to public safety and, in particular, gang members, and criminal 
offenders on the streets.
    Ms. Richardson. Mr. Chairman.
    Chairman Thompson. The gentlelady from California.
    Ms. Richardson. If there is no objection, is it possible 
that we could ask Members to keep their questions to about 2 
minutes, since votes have been called, so we could all get 
this--oh, it is a recess?
    Chairman Thompson. It is a recess.
    Ms. Richardson. Okay, no problem. Thank you.
    Chairman Thompson. The gentleman from Pennsylvania, for 5 
minutes.
    Mr. Carney.
    Mr. Carney. Well, thank you, Mr. Chairman.
    Mr. Beers and Mr. Morton, I don't know if you can answer 
this--I think you probably can.
    From which nations do we see the most visa overstays? Do we 
have a sense of that?
    Mr. Morton. You know, I don't, right off the top of my 
head. I think we could do some analysis, and get back to you 
with--with a sense of that----
    Mr. Carney. Please.
    Mr. Morton [continuing]. If you would like that, 
recognizing that it is a fairly--as we have discussed--a small 
statistical pool. But, yes, I think we can get that for you.
    Mr. Carney. I guess it does sort of beg the question of the 
follow-on--is if we can identify that, can we, then--what sorts 
of diplomatic efforts can we take to work with those nations, 
to make sure that this doesn't happen--you know, that there is 
things we--I think we really ought to be doing in terms of 
that. I would hope that you share this information with the 
State Department and the various councils around the globe, so 
they have this information.
    Anyway, Mr. Alden, I was struck, actually, by your comments 
that the cost-benefit analysis doesn't come out on the 
biometric side in terms of exit technologies. What about--the 
entrance technologies--is it the same? You know, do the 
biometric entrance technology----
    Mr. Alden. No. No, I think it is a very different 
situation. I think if we looked at the deployment of biometric 
technologies through US-VISIT, it has been a tremendous 
success. In fact, one of the successes, from my perspective, 
was that it was rolled out very intelligently, in a way that 
caused minimal disruption to lawful travelers.
    So we started it, for instance, with two fingerprints, just 
for travelers from visa countries.
    Mr. Carney. Right.
    Mr. Alden. Then, as we became comfortable with that, the 
Department of Homeland Security moved to two fingerprints from 
everybody from visa-waiver countries as well. Now, we are 
moving to a full 10-fingerprint system, which is more accurate; 
has increased security benefits, because you can check it--the 
fingerprints against fingerprints that are picked up in 
Afghanistan or Iraq or elsewhere.
    So there has been real steady progress on the entry side. 
The exit side is a lot harder for a number of reasons we can 
talk about. But it is a very different situation.
    Mr. Carney. I think you did a good job of laying out those 
difficulties.
    So, from a cost-benefit analysis, in your judgment, the 
entrance technology is the way we should be focusing resources?
    Mr. Alden. Well, no question--particularly if your priority 
is keeping out potential terrorists and criminals.
    I mean, if it is a question of immigration accounting--of 
trying to know whether people have stayed here illegally for 
work purposes--then that is a different set of metrics----
    Mr. Carney. Sure.
    Mr. Alden [continuing]. That you would use.
    But--but for the purposes of National security, I think 
there is absolute no question.
    Mr. Carney. Okay. Thanks.
    Mr. Beers, in your comments, you said that you are 
``adequately budgeted''--you have what you need, roughly?
    Mr. Beers. That is correct.
    Mr. Carney. Okay.
    Mr. Beers. For the current activities that US-VISIT 
undertakes.
    Mr. Carney. All right. Now, not all the compliance-
enforcement units are fully staffed. Is that right--are 
adequately staffed?
    Mr. Beers. You will have to ask Mr. Morton that.
    Mr. Carney. Mr. Morton? Yes.
    Mr. Beers. He is the one who runs the compliance units.
    Mr. Morton. Actually, we use our full appropriation from 
Congress--that is not to say that, you know, we have--as I said 
before, the ability to address every lead that is generated. 
But we do spend the full appropriation that we receive, which 
is about $67 million.
    Mr. Carney. Okay.
    You could use more?
    Mr. Morton. We do the best we can with the appropriation we 
get every year, and----
    Mr. Carney. I understand. Listen, I will take that as a, 
``Yes.'' Thank you.
    Mr. Morton. You know, the point that you highlight is it 
really needs to be taken in the context of the general 
immigration enforcement. Why I think many of us feel that 
immigration reform is necessary has been pointed out here--this 
is a very large number of people who are not complying with the 
law. They fall within the even larger number of people who, for 
a variety of reasons, have not complied with the law over time. 
ICE has a limited ability to deal with those individuals. We 
have to have rational priorities in a world of limited 
resources. Visa overstays are no different.
    Mr. Carney. Understood. If, somehow, we could enhance your 
resources, we would like that.
    Actually, Mr. Broun's comments resonated with me, too, 
because we have heard similar reports in my district, in 
Northeast Pennsylvania--that some of the ICE folks that--you 
know, ``There is nothing we can do. We are not going to--you 
know, you can report them. You can do whatever. But we are not 
going to do much.''
    Mr. Skinner, has E-Verify worked, from your estimation, in 
terms of workplace compliance and things like that?
    Mr. Skinner. Congressman, we have not completed a study to 
see if--to determine whether it is or it is not working. That 
is something, again, that is on our radar screen. It is 
something that we anticipate doing in the--in the months ahead.
    Mr. Carney. Sure.
    You know, as we look at comprehensive immigration reform 
coming up, that would be awfully handy information to have. So, 
you know, as soon as that could be done, I would appreciate it 
myself.
    Mr. Skinner. You can be sure that that is something that we 
will be doing in the near future.
    Mr. Carney. Thank you. I will yield back.
    Chairman Thompson. Thank you.
    The gentleman's time expired.
    Mr. Morton, for the committee's information, to what extent 
have you utilized contractors rather than full-time employees 
in your course of work?
    Mr. Morton. The CEU work we do is almost exclusively 
performed by Government employees, because it is a straight 
law-enforcement function. We do use a limited number of 
contractors--42--to help us with some of the scrubbing of the 
leads that we receive from the various programs. We do that, in 
large part, because that piece of the work if funded by fees.
    The fee structure is much more uneven than a straight 
appropriation. Using the contractors, we are able to deal with 
the year-to-year fluctuations that we have in the fee-based 
structure.
    But, as a general rule, we want to do this with Government 
employees.
    Chairman Thompson. Thank you. If you would, please provide 
the committee with the name of those contractors, and what have 
you.
    Mr. Morton. Happy to do so.
    Chairman Thompson. I now recognize the gentleman from 
Texas, for 5 minutes--Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    Mr. Beers, I have a chart here, and I believe it comes from 
your testimony, primarily. But about 11 percent of the 
overstays are actually reviewed? When you look at overstay 
leads investigated, it is about 3 percent of the potential 
universe of overstays? That leaves about 89 percent outside of 
ICE parameters.
    First of all, is that accurate? If it is, that--to me, that 
is very disturbing, particularly given the fact when you had 
somebody like Mr. Smadi, who attempted a terrorist attack in my 
home State of Texas, who, as I understand it, would not be one 
of the leads investigated because of the criteria used under 
the current situation.
    Mr. Beers. Sir, the reviews we do are based on the National 
security criteria that ICE provides us with. Those numbers 
reflect the individuals who fall within the parameters of the 
National security criteria which ICE provides us with.
    Mr. McCaul. Yes, and I understand that. I know you have 
your parameters. But does that mean that about 89 percent of 
overstays are outside of the ICE parameters?
    Mr. Beers. That is what the figures say.
    Mr. McCaul. Again, I find that very troubling.
    I don't know what the answer is going to be here. I know 
that the 2011 budget request completely eliminates funding for 
the comprehensive biometric exit program, a $22 million 
decrease.
    Mr. Morton, what are the chances of that--what are your 
thoughts about that?
    Mr. Morton. With regard to the funding for US-VISIT, I 
would address that to Mr. Beers. To your earlier points, it 
is--the basic challenge is the challenge that we face every 
day, and that I have referred to earlier--as an enforcement 
agency, we have more leads than we can address. That is just 
the day-to-day reality that I face in running the agency.
    We are a big agency, but we have to prioritize. In that, I 
focus first and foremost on National security; next, we go to 
criminal offenders; then, to maintaining basic support along 
the border and for fugitives. And----
    Mr. McCaul. I understand you have to prioritize within the 
resources you have. I don't think you have enough. Have the 
parameters changed since the Smadi case?
    Mr. Morton. There have been some changes. A short answer to 
your question is, ``Yes.'' I would prefer to talk to you about 
that----
    Mr. McCaul. Sure.
    Mr. Morton [continuing]. Not in a public setting.
    Mr. McCaul. Mr. Skinner, you and I talked briefly before 
the hearing about this resource issue. I think you--I don't 
want to paraphrase you, but you basically said, ``To really 
address this, we are going to need a lot more resources thrown 
at it.'' Would you care to comment on that?
    Mr. Skinner. When we performed our review about 4 or 5 
years ago, one of the things that we observed was a tremendous 
backlog. In fact, about 53 percent of the total referrals to 
ICE were backlogged for over a year.
    It is my understanding, based on information we received as 
we monitor implementation and the improvements that ICE is 
making as they go forward--is that its backlog still exists 
today. Our concern, and my concern would be, as we do our 
follow-up work, is, ``How are we going to dig into that 
backlog?''
    If you continue to make a backlog of tens of thousands of 
referrals of potential--of violators or potential violators--
who, among that group, is someone that we need to target right 
away? We don't have time on our side, so that is something that 
we will be focusing on as we move forward.
    Mr. McCaul. Well, thank you.
    I think this is a--for this administration to propose a cut 
in resources to address this, I think it is not the right 
action.
    Mr. Alden.
    Mr. Alden. Mr. McCaul, thank you. Would you still allow me 
to respond quickly on the Smadi case? Obviously, the Government 
officials know many things that I am not privy to.
    But my understanding of that case is when the sheriff in 
Texas contacted officials in Washington, when he pulled over 
Mr. Smadi for the broken taillight, he was told that he was 
under FBI investigation--that Smadi was under FBI 
investigation. He was held in prison for a night and released 
the next morning. In fact, the operation that finally resulted 
in his arrest was set up by the FBI.
    If he had been identified and targeted as a visa 
overstayer, and deported, it would have interfered with a 
critical law enforcement investigation. So I hate to see this 
case used as an argument for overstay-tracking as a 
counterterrorism--so I think it is a misunderstanding of what 
occurred in that case. I think that was a law-enforcement 
success, not a visa-tracking failure.
    Mr. McCaul. I agree with that. I think the FBI did an 
outstanding job. You are right. They were working this case to 
get to where they finally did. It was a successful law 
enforcement story. But if there are other Smadis out there that 
the FBI is not working an investigation like this--yes, I just 
think the criteria--the parameters should be addressed so that 
it would include individuals of his age, you know, in a 
different case.
    Mr. Alden. I mean, again, just to make the record clear, he 
was from a country that is tracked under the NSEERS program. 
There is an effective entry-exit system for people from those 
countries. So we would have known he was a visa overstay.
    Mr. McCaul. That is good news.
    I yield.
    Chairman Thompson. Thank you very much.
    Mr. Beers, did you want to make a comment on something?
    Mr. Beers. I did, on the issue, Congressman--with respect 
to the funding issue.
    Mr. McCaul, there is no money in the budget for biometric 
air exit in fiscal year 2011. That is correct. The reason is 
that I couldn't tell you how much that program ought to cost. 
We believed that it was more important not to put a number in 
there that we couldn't justify, since we hadn't made a decision 
yet.
    When we make a decision and we are prepared to go forward, 
then we will be prepared to ask you for the money that we need. 
The time process, as you are well aware of, for developing 
budgets is such that we got caught in a jam between finishing 
this study and preparing the budget.
    Chairman Thompson. Thank you very much.
    The gentlelady from California is recognized for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being before our committee today. 
I just have a couple of quick questions.
    The first one, since I have you all in front, especially 
our ICE director, here--there is a lot of comments going out in 
California, including my own district, that somehow ICE agents 
are going out and making raids all over the place. Can you 
state, for the record, here, at this hearing, what, if any 
raids have been taking place in rounding people up off the 
streets?
    Mr. Morton. I would tell you that one of the things that I 
have to deal with every day, as the leader of Immigration and 
Customs Enforcement is rumors about widespread raids that are 
going on in one place or the other. We dealt with one just a 
few weeks ago, where rampant rumors that we were teamed up with 
Walmart, and that we were going into individual Walmarts around 
the country and arresting people.
    It is just simply not the case. We do conduct worksite 
enforcement operations. They are targeted on specific employers 
after an investigation that we conduct. Where those 
investigations reveal that there are people who are working in 
the country unlawfully--and as we go through our criminal 
investigation, we will address the civil immigration 
violations.
    But the idea that ICE is conducting, you know, raid upon 
raid and State upon State across the Nation, willy-nilly, is 
just simply not true.
    Ms. Sanchez. So I am looking at some information I have in 
front of me, where it talks about the past administration--the 
Bush administration versus the Obama administration, and some 
of the myths out there. It does, in fact, say here that you are 
doing worksite enforcement, that you are much more targeted, 
and that you are doing it more analytically.
    Quite frankly, getting a lot of the problem people and 
identifying them, and either putting them into a prosecution 
cycle, as they are criminals, or following the law of our land, 
and making sure that they are sent to their home countries. Is 
that not true?
    Mr. Morton. That is right.
    Ms. Sanchez. So you are not going out and doing raids on 
the street randomly, but you are very analytically and 
surgically analyzing businesses that are abusing the law.
    Mr. Morton. That is right. We don't do street sweeps at 
all.
    Ms. Sanchez. Thank you for that.
    I would like to--Mr. Alden, when Mr. Carney was asking you 
about US-VISIT--and, particular, knowing who is coming into our 
country, and who is leaving our country, because, as the 
Chairwoman of that subcommittee, up until a couple weeks ago, 
US-VISIT, of course, was a headache.
    But I think you said something very interesting. I would 
also like to make sure that I understood what you said--``If we 
are looking for terrorists, then the most important thing is to 
find them when they are coming--attempting to come into our 
country.'' Is that what you said?
    Mr. Alden. Absolutely.
    Ms. Sanchez. While it would be nice to know who is leaving 
our country--that that would be more important from a visa-
overstay perspective with respect to who may be working under 
the table, or without the right documents in our country.
    Mr. Alden. It is important for the integrity of immigration 
laws--its primary value.
    Ms. Sanchez. But finding a terrorist on the way out is 
probably not the place we want to be looking for them. It is 
probably finding the terrorist coming in--is where we should be 
putting our resources?
    Mr. Alden. In fact, as I understand the technologies that 
are currently being tested, we wouldn't find the terrorist on 
the way out, even with a fingerprinting system, because the 
data is not available in real time. You take the fingerprints. 
They are uploaded at the end of the day. We would be able to 
say, ``Well, yes, there was someone on the Terrorist Watch List 
in the country. We know he has left. He went on a flight back 
to Amsterdam.'' Possibly, we would be able to alert law-
enforcement officials in those countries. But we wouldn't find 
him as he was exiting, even if that scenario should occur.
    Ms. Sanchez. Thank you, Mr. Alden.
    Thank you, Mr. Chairman. I just wanted to make sure I 
understood what he had said.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentlelady from California, 
Ms. Richardson, for 5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Beers, can you explain to me--how is it that the US-
VISIT program has $50 million from prior-year funds that you 
haven't used?
    Can you explain to me--how is it that the US-VISIT program 
has $50 million in prior-years' funds that have not been 
utilized?
    Mr. Beers. If you are referring to the $50 million for 
biometric air exit, the money is appropriated as no-year money. 
It is available for the implementation of the biometric-air-
exit decision process that is currently underway.
    Ms. Richardson. So, typically, if you don't spend money, 
like last year of whatever it just kind of sits in a pot until 
you decide----
    Mr. Beers. We generally spend our money. But this 
particular box of money is specifically devoted to biometric 
air exit. Since we haven't made a decision on that--there have 
been some prior years when we haven't expended all of our 
funds. I can say that we are doing a much better job on that. 
The money is put to good use. It is not that it just sits 
around. It just wasn't expended in prior years.
    Ms. Richardson. I realize, Mr. Chairman, it is not the 
subject of this particular committee hearing. But, when I read 
that, I thought, from an oversight perspective, it was kind of 
interesting, because if money is not being spent really 
technically--what should be done, and what happens to us--you 
would have to return the money. Then, once you did your study 
and you decided what program you wanted to implement, then you 
would come and you would ask for the money.
    So, to me, it just seems a little--not quite accurate 
information that is being shared, because, actually, if you--
the question the gentleman asked--if you already got $50 
million in your pocket, you didn't have to initially ask for 
something this year. So I would like to explore that more in 
the future.
    Mr. Beers, I have got to tell you I was a little surprised 
when Mr. Morton said that he couldn't answer a basic 
quantitative question. Mr. Carney asked, ``Do you have the 
statistical information of, you know, the results by country?'' 
He said, ``No,'' you know, ``I don't have it.''
    I got to tell you--I come from the private sector. I cannot 
imagine a staff meeting that you would have that he would come 
to, and you wouldn't ask, of the 1,100 names, ``Tell me what 
countries these come from. Is there a particular time period 
that they come?'' I mean, I am not going to tell you how to do 
your business, but I have found that to be particularly 
shocking--that that information was not----
    Mr. Beers. We have that information. We could not answer 
Mr. Carney's question as to which country had the largest 
number of overstays----
    Ms. Richardson. Well, if you have it, why wouldn't----
    Mr. Beers. We have the information about that. Neither John 
nor I had that at the tip of our fingertips. We would be happy 
to provide that rapidly, as a question from the committee. But 
the information is available. It is communicated on a regular 
basis to the State Department. They, themselves, want to know 
what their overstay rate is, because that helps them in looking 
at the visas that they have to issue.
    So all of that information is available, we just didn't 
have it at our fingertips.
    Ms. Richardson. That wasn't my clear understanding of his 
response. I think it would be helpful for the committee to know 
that.
    Mr. Morton, you answered that you have more leads than what 
you can address. Yet, when you were asked the question, ``Do 
you need additional funding,'' you did the good old party 
response--programmed response, ``Well, you know, we are doing 
the best that we can.'' Actually, Mr. Beers laughed. I thought 
that that was particularly interesting, because given that we 
are an oversight body, we are talking about American lives that 
are in danger here.
    If you have more leads than what you can address, it sounds 
like to me you need more people. The place to say it is here. 
If you are not given the freedom by Mr. Beers to say that, then 
we have a bigger problem, because that is what we are here for.
    So if you need more resources, we need for you to tell us.
    My last question, Mr. Morton--we talked about--I think it 
is the I-94 form. I have looked at the same form for my 
international travel now, for the last 20 years. I am curious--
when have we last updated it? It would seem to me that it would 
make sense, instead of saying where you are saying--because, 
you know, I go through customs. I don't think anyone is 
checking, ``Do you stay at the Marriot?'' or wherever you are 
staying. I think it would be more helpful to know, ``Is there a 
point of contact where you are staying?'' and that that 
information should be provided prior to the person landing.
    So, maybe, at the point of purchase of the ticket--so that 
that way, someone--I mean, we went to the National targeting 
center. Someone could be typing in these names, see the same 
names popping up, and see that there is a problem. So I would 
just hope--and I believe my--probably down to 30 seconds. But I 
would like to see you come back to the committee with some 
ideas of how we might change that form. Because, as far as I 
have seen it, it is the same form I have seen for 20 years.
    Last, whoever was working on the US-VISIT program--the 
pilot--that looked at the two seaports--if you could provide 
this committee that information?
    Could one of them take a stab?
    Chairman Thompson. We will allow the witnesses to answer 
the question.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Morton. I am happy to give you our thoughts on the I-
94.
    I think the most recent time the form was updated was in 
2004. But you have hit on exactly a key point for us in terms 
of enforcement, and the promise of things like US-VISIT and 
technological improvements--in order for ICE to be effective on 
the back end, for those people who knowingly violate the law, 
after having received a privilege to come here, the more 
information that we can get up-front that is detailed and 
accurate, that is beyond just, ``I am staying at the Marriot 
for 3 days in Orlando''--just imagine, from our perspective, 
how difficult it is to start with that as your basis.
    Things like ESTA, which is the program of requiring people 
coming here for the visa-waiver pilot program, where you don't 
need a visa at all--a computer-based, Internet-based program 
that requires you to put in a lot more information--give the 
United States a lot more information before you even come here, 
I think, is the promise of the future.
    I think we would be more than happy to give you our 
thoughts on that.
    Mr. Beers. We will get you that information on the full 
study that we did on the pilot program.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentlelady from Brooklyn, New 
York, Ms. Clarke, for 5 minutes.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    I want to thank our panelists for being so forthcoming with 
the information being requested around this issue.
    I can appreciate the challenges that we face in trying to 
address this issue of exiting--some of the technologies being 
somewhat cost-prohibitive. I also appreciate, you know, the 
diligence with which this committee has raised questions about 
those who may have come to our country, overstayed their visas 
intentionally to do us harm.
    It is estimated that the number of non-immigrant overstays 
widely varies. That is part of the challenge. But I do have to 
take some exception with ``These people are criminals'' 
classification. I mean, I want to challenge that notion, 
because employers actually play a role here as well. When you 
have such a varied visa system, where oftentimes employers have 
a role to play about whether a person falls out of status or 
not, it makes your job even harder.
    We have been approaching this sort of as a monolithic 
issue. Different people come to the United States under 
different types of visas, and they come at varying ages. So if 
you are a child that comes on a visitor's visa, and your 
parents, for whatever reason, are unable to receive you back 
home, you may stay with a relative that is able to take care of 
you, thereby overstaying a visa. How do we adjudicate something 
like that?
    Perhaps you are a worker that was brought on a special type 
of visa because of your expertise, and your employer becomes 
recalcitrant, but still needs your work there. They don't fill 
out the paperwork in time. Is that the terrorist that we are 
looking for, and the needle in the haystack?
    I have to say that I think the way that we really get to 
the core of this is by addressing a comprehensive immigration 
reform, where we look at the types of visas that we have and, 
then, maybe do a special application of remedy per class. Then, 
we being to take a look at who it is that is truly doing us 
harm, and we are able to focus on that.
    So let me just ask a couple of questions here. The office 
in DHS--excuse me--which office in DHS has lead responsibility 
for estimating non-visa immigrant overstays, and then analyzing 
the trends?
    Mr. Beers, could you give me a sense of that?
    Mr. Beers. We put together the initial information that 
would be available to look at those issues using the US-VISIT 
database system.
    So we can see how that is happening. Much of our work is 
done in conjunction with ICE, with respect to----
    Ms. Clarke. So there is not one particular unit in--that 
specifically focuses on this? It is a joint----
    Mr. Beers. Within US-VISIT, that is correct--the Data 
Integrity Group.
    Ms. Clarke. Okay. So, the Data Integrity Group.
    Are there other DHS offices involved in collecting and 
analyzing data on visa overstays?
    Mr. Beers. We have the information. Other people use our 
information for their own analyses.
    Ms. Clarke. Okay.
    Is this analysis done categorically based on--upon the type 
of visa that was issued?
    Mr. Beers. We have that data as well. Yes, it can be done 
on that as well.
    Ms. Clarke. Then, we can break it down to, perhaps, the age 
of the individual, what circumstances they came to the United 
States under?
    Mr. Beers. Yes.
    Ms. Clarke. Does DHS share non-immigrant visa-overstay data 
with the Department of State Bureau of Consular Affairs, the 
agency responsible for issuing the visas?
    Mr. Beers. Yes.
    Ms. Clarke. Okay. Does DHS data on non-immigrant visa 
overstays--is that all currently available?
    Mr. Beers. Currently available to the public, or currently 
available to the Department of State?
    Ms. Clarke. To the Department of State?
    Mr. Beers. Yes.
    Ms. Clarke. Okay.
    Has the Department analyzed this data to explore whether 
foreign nationals on certain types of visas, from certain parts 
of the world, or other demographic traits, are more or less 
likely to stay after their visa expires?
    Mr. Beers. I will have to get back to you specifically on 
whether that particular analysis has been done. I don't know 
the answer to that.
    Ms. Clarke. Yes. I just think that that may help us to sort 
of boil down--drill down, if you will--to where the actual 
threat levels exist within the system that we have. Perhaps, 
that is where we can begin to reform it.
    I want to thank you all, once again, for being here--
sharing what you have with us. But I just think that we have to 
stop looking at this from a monolith. Oftentimes, that is the 
way things are portrayed.
    People come under different circumstances, different ages. 
We need to address it in those nuanced ways.
    I yield back, Mr. Chairman.
    Mr. Beers. Congresswoman Clarke, just let me answer the 
last question that you asked.
    Ms. Clarke. Yes.
    Mr. Beers. The National security criteria that ICE gives us 
in terms of identifying those overstays that are of most 
concern is a result of that. It is not just from the analysis 
of overstays. It is also from intelligence information that ICE 
has as part of the intelligence community.
    Mr. Morton. Yes, if I might, Mr. Chairman----
    Chairman Thompson. Please----
    Mr. Morton. Just so you are not under any misimpression--
that is exactly what we do every day, when we go out and 
enforce. We exercise prosecutorial discretion. So I can assure 
you that we are not spending our limited resources on 
identifying juveniles who may have stayed here longer with a 
relative. The cuts we are making are at a much higher level; 
generally, as I said earlier, focused around questions of 
National security or public safety.
    You know, your basic point is well taken. That is not how 
we operate.
    Ms. Clarke. Mr. Chairman, if I might----
    Chairman Thompson. Please.
    Ms. Clarke. I understand that. I wanted to put it in 
context for the record, and for our colleagues because we speak 
about this in such a monolithic fashion. It is though everyone 
who comes on a visa is a potential threat to us. But when we 
begin to boil it down--as you said, you begin to eliminate 
juveniles and other categories of people, based on the type of 
visas they have--then we can really focus our resources--our 
limited resources--on those who may be here to do us harm.
    I yield back.
    Thank you, Mr. Chairman.
    Chairman Thompson. Good point.
    I don't think there is any disagreement between any of the 
witnesses at this hearing. The facts about it, I think, people 
have suggested that, just based on what the facts are--we have 
to prioritize who we go after first. Obviously, it is the 
terrorists and other people that would be top of the list.
    Gentlelady from Las Vegas, Nevada, Ms. Titus, for 5 
minutes.
    Ms. Titus [continuing]. I would just ask you, then, if you 
would explain the discrepancy in the calls or--and how you 
involve the stakeholders in that rulemaking process.
    Mr. Beers. That notice of a potential rule did create those 
numbers and that reaction on the part of the airline industry. 
In part, as a result of those concerns expressed by the airline 
industry, the pilot study that we conducted and completed in 
July focused on that collection being done by U.S. Government 
officials, rather than the airline industry, which was also not 
interested in having responsibility for conducting the 
biometric air exit.
    We have looked at a number of choices. I would say that, 
without being in a position to tell you precisely what those 
numbers are at this particular point in time, we are talking 
about a 10-year program that is over $1 billion by any of the 
options that we have looked at. Those numbers are estimates. 
They have been under review since that study was completed. We 
are continuing to scrub them. We will be in a position to talk 
about them once a decision has been made by the administration.
    The assumption that the American airline industry and the 
American traveler will necessarily have to pay those fees is 
also not a determined issue. That was the airline industry 
making the assumption that they would have to pay, or eat the 
cost. We haven't made a decision on that at this particular 
point in time. That is an issue, though.
    Ms. Titus. Can you keep me updated on that as you move 
forward in this process?
    Mr. Beers. Yes, ma'am.
    Ms. Titus. Thank you.
    Also, I think that part of the comprehensive solution is 
not just checking people when they come in and when they come 
out, but having the facilities be able to deal with the flow of 
people who have been cleared. So I wondered if, in your pilot 
program, you looked at the impact of the two systems that you 
were testing on the flow at the airports? Did you detect any 
significant delays with one of the other, or----
    Mr. Beers. To the best of my knowledge, the efforts--and, 
again, they were pilot programs--did not. That is still 
something that would be of extreme interest to us. Obviously, 
we want security and travel facilitation to be an integrated 
process, and not have one affect the other. So it is an issue.
    Ms. Titus. It is. I appreciate you recognizing that and 
keeping me posted on that as well. I would just ask you 
finally, then, do we have your assurance that, as you move 
forward with this, you will keep the stakeholders involved and 
seek the input of the different airports?
    Mr. Beers. We will have to do that. Yes, ma'am.
    Ms. Titus. Thank you very much.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentlelady from Texas, for 5 
minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Let me compliment the Chairman and the committee for 
focusing on truth, rather than myth. The contrasts between 
administrations are unhelpful. Contrasts attempted to be made 
between the Bush and Obama administration is extremely 
unhelpful. What we should be focusing on is: How we can go 
forward?
    I am interested, Mr. Alden, in your perspective. I think it 
is important because you bring a perspective that comes not 
only from your own intellect and research, but you have a 
political perspective as well. I think these are the kinds of 
input that we need to have to be constructive going forward.
    So did I read correctly, in your testimony, that a complete 
shutdown of the border does impact commerce, and the ingress 
and egress of necessary principals that may come in. When I say 
that--diplomatic and otherwise--that may come in--is that your 
testimony?
    Mr. Alden. Well, I want to be clear, Congresswoman. I don't 
think anything we are talking about here involves a complete 
shutdown of the border. The closest we have seen to that was in 
the immediate aftermath of 9/11.
    Ms. Jackson Lee. No, but answer my question, which is: If 
that was to occur, would that impede commerce? That is what am 
putting a hypothetical----
    Mr. Alden. Well, just to give you a figure on it, we--at 
the Canadian border after 9/11----
    Ms. Jackson Lee. Right.
    Mr. Alden [continuing]. The decision was made to do 
detailed inspections of every incoming traveler--commercial and 
ordinary citizen. The lineups into Windsor, Ontario ran to 12, 
15 hours and longer within 2 days.
    Ms. Jackson Lee. You can be----
    Mr. Alden. So doing that kind of detailed inspection alone 
was enough to effectively shut down that border.
    Ms. Jackson Lee. You can be assured that we heard from the 
Northern border on that.
    Mr. Alden. Yes.
    Ms. Jackson Lee. Thank you. I just wanted to clarify your 
point.
    Mr. Morton, I have heard your passion on this whole concept 
of immigration, and the need for comprehensive immigration. I 
would like to insert into the record, by my words, the calm and 
very appropriate expression of that by multiple groups on last 
Sunday. It was an amazing array of groups of faith. I hope you 
had a chance to at least see this combination of individuals 
who came in peace, who were articulate, to the higher ranks of 
various churches, such as cardinals and bishops, and other 
leading faith participants, along with the community--business 
persons, a various array of folk who were talking about 
comprehensive immigration reform.
    My question to you: What is the time frame? You are part of 
the structure of what the administration will have to look to 
in comprehensive immigration reform. Are you working on this 
inside the Department of Homeland Security? As I understand it, 
this is something that is on the administration's agenda. Is 
there pre-work being done that will be helpful to Members of 
Congress as we move forward?
    Mr. Morton. Absolutely. Not only are working on it and have 
been working on it for quite some time. The President asked the 
Secretary to lead the effort. We have met with over 1,000 
interested groups, whether they are advocates, churches, 
individuals at meetings throughout the country. I participated 
in quite a number of them personally, and--and led them.
    We have been working very closely with Senators Schumer and 
Graham on their thoughts on how to reform the system. We 
support the basic principles that they have outlined. We are at 
the ready, and have been doing a great deal of homework. It is 
a strong commitment of this particular Secretary. I have made 
no secret that I think it is necessary, and the President has 
obviously said repeatedly, including most recently at the march 
itself--that this is a commitment, and that is at the top of 
his radar screen.
    Ms. Jackson Lee. So if I can pursue my line of questioning, 
it is a given that the administration believes that a 
regulatory scheme structure--a scheme does not attract you--
will help you clarify, for example, your duties?
    Secretary Morton.
    Mr. Morton. Absolutely.
    Ms. Jackson Lee. As I say that, let me make--let me put 
this number in the record--that ICE is reporting a 40 percent 
increase in removal of aliens convicted of crimes in 2010, 
compared to the same period last year, which covered the 
previous administration. I think that record should be clear, 
because if there is any deportation that I would advocate, it 
is distinctively a convicted criminal under these present laws 
versus a mother who is trying to stay here to raise her 
children.
    Would you go ahead and continue your answer, and have any 
comment on this idea of the criminal aliens versus those who 
have simply come here for work, even though they may be un-
status.
    Mr. Morton. Obviously, National security cases and 
criminals are our highest priority. As I think everyone will 
shortly see, there is going to be a profound change in the 
results from an enforcement perspective at ICE. As you have 
just noted, we are on track to see something on the order of a 
40 percent increase in the number of criminal aliens removed 
from the United States in a single year.
    So I have brought a very strong focus to that. I think 
everyone on either side of the aisle, when they look at the 
challenges that we face in terms of immigration--most people 
agree. They disagree on a lot of things. But they agree that, 
yes, we ought to be starting with criminal offenders. That is 
exactly what we are doing.
    Ms. Jackson Lee. In closing, Mr. Chairman, I just want to 
say, for the record, I think it is very clear that the Obama 
administration has an agenda, a positive agenda, which is to 
fix what has been broken, now, for, I would say, the 1986 bill, 
and, then, the amendments thereafter, in terms of immigration, 
and needs a fix so that these officials can decipher between 
known criminals and others who would do harm to this country as 
it relates to our National security, and to work on a structure 
that decent individuals who come to this country, as they did 
in the early 1900s--as many parents and grandparents of those 
of us who have immigrant histories would be able to do--that we 
need to move quickly on comprehensive immigration reform; and 
citing numbers about how many employer sanctions, which is part 
of the structure, does not move me.
    The overstays will continue as long as we don't have a visa 
structure for work. They will continue as long as we want to 
divide families--mothers and fathers being sent back, and 
children who are born here. They will continue as long as we 
don't address the question swiftly, quickly and expeditiously, 
and so it can be understood.
    With that, Mr. Chairman, I yield back.
    Chairman Thompson. Thank you very much.
    I would like to thank the witnesses for their very valuable 
testimony, and the Members for their questions.
    Before concluding, I would remind our witnesses that the 
Members of the committee may have additional questions for you. 
We will ask you to respond expeditiously, in writing, to those 
questions. In addition to that, there are--already been some 
commitments to get information back to us. I would encourage 
you to get it back to us as soon as possible.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:11 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions Submitted by Chairman Bennie G. Thompson of Mississippi for 
     Rand Beers, Under Secretary, National Protection and Programs 
              Directorate, Department of Homeland Security
    Question 1. What DHS data on nonimmigrant visa overstays is 
currently available? Has the Department analyzed these data to explore 
whether foreign nationals on certain types of visas, from certain parts 
of the world, or with other demographic traits are more or less likely 
to stay after their visas expire?
    Answer. The overstay rate data currently under review include 
variables for country, class of admission, port of admission, and 
airline. The focus of the review has been on the accuracy of the 
overstay rate estimates. Our systems, and particularly our collection 
and verification of biographic departure records for air travelers, 
have now improved to the point where we are increasingly confident in 
the reliability of the data. We expect to be in a position soon to 
release overstay rates for each Visa Waiver Program country.
    Question 2. Provide a listing, by country of origin, of the 
estimated number of foreign nationals currently in the United States 
who have overstayed their visas.
    Answer. Over the past several years, DHS has made significant 
strides in its ability to identify foreign nationals who have 
overstayed their authorized periods of admission. However, the number 
of nonimmigrants who overstay their visas or periods of admission in 
any given year and remain in the United States has historically been 
difficult to estimate, primarily due to the lack of collection of 
departure information at land ports of entry. DHS currently has 
programs in place that use airline manifest information; border 
crossing records; document reads enabled by the Western Hemisphere 
Travel Initiative (WHTI); and information collected under the US-VISIT 
program that allow us to record, for most individuals, who has entered 
and exited the country. US-VISIT uses a multilayered system that 
includes automated data searches, manual data searches, and manual 
verification by human analysts to identify aliens who remain in the 
United States beyond their authorized periods of admission. These 
aliens are commonly called visa overstays.
    DHS has refrained from disclosing and using estimated overstay 
rates to help determine policy, such as Visa Waiver Program 
eligibility, because precise numbers and rates could not be accurately 
calculated. However, the current system, and particularly DHS 
collection and verification of biographic departure records for air 
travelers, have now improved and created confidence in the reliability 
of the data. DHS is conducting further manual reviews for other 
countries to reach a point where it is confident that the evaluation is 
valid. DHS expects to be in a position soon to release overstay rates 
for each Visa Waiver Program country and to begin using these data to 
inform VWP decisions, as required by the VWP statute.
    Question 3. How can the Department improve the I-94 form to obtain 
better information from travelers to help DHS locate travelers who 
overstay, and enforce visa deadlines?
    Answer. DHS has made significant strides in its ability to identify 
foreign nationals who have overstayed their authorized periods of 
admission.
    The Department recognizes that using the paper version of Arrival/
Departure Report (I-94) Form I-94 to collect entry and exit data, which 
support the identification and location of possible overstays, is not 
optimal. DHS is planning to phase out the paper version of the form and 
rely on other means for data collection. In particular, DHS has worked 
closely with airlines to ensure that complete airline manifest 
information is provided--ensuring DHS receives detailed information on 
departures and arrivals. DHS also uses border crossing records; 
document reads at the land border enabled by the Western Hemisphere 
Travel Initiative (WHTI); and other information collected under the US-
VISIT program to record arrivals, departures, and changes to status 
that allow individuals to extend their authorized periods of stay. DHS 
then analyzes this information to determine whether individuals have 
overstayed the terms of their admission. Upon determination, DHS takes 
action. For individuals who overstayed and have left the United States, 
DHS creates ``lookouts'' in both our biographic and biometric systems 
so that any State or DHS officer who later encounters the individual is 
aware of the prior failure to comply. For those who are believed to 
have overstayed, but not departed, ICE opens field investigations 
(based on prioritize and resources) to locate and remove the 
individual.
    Question 4. It is my understanding that Secretary Napolitano has 
been briefed on the outcome of the US-VISIT exit pilots and is 
considering how to proceed. What recommendations did you make to the 
Secretary and when can we expect a final decision from the Secretary on 
implementation of the program? Will you commit to briefing to the 
committee in advance of an announcement on the Department's plans?
    Answer. The Department of Homeland Security (DHS) conducted the Air 
Exit pilots from May 2009 to July 2009, pursuant to the 2009 DHS 
Appropriations Act. The Air Exit pilots tested scenarios for biometric 
exit capabilities at two airports. The Air Exit pilots were: (1) U.S. 
Customs and Border Protection (CBP) officers at the departure gate of 
Detroit Wayne Country Metropolitan Airport and (2) Transportation 
Security Administration (TSA) screeners at the main security checkpoint 
of Hartsfield-Jackson Atlanta International Airport. In cooperation 
with CBP and TSA, U.S. Visitor and Immigrant Status Indicator 
Technology Program (US-VISIT) prepared an Air Exit pilot evaluation 
report that DHS submitted to the House and Senate Subcommittees on 
Homeland Security on October 26, 2009.
    Any decision regarding the implementation of biometric exit 
procedures must consider economic, technological, and operational 
impacts, as well as possible modifications to port facilities and the 
surrounding environment. DHS continues to examine options for biometric 
exit procedures and, once a decision is made, DHS will brief this 
committee.
    Question 5a. It is my understanding that US-VISIT will hire 
additional data integrity analysts to reduce the backlog of previously 
unreviewed overstay records.
    What is the current backlog level? What has contributed to this 
backlog?
    Question 5b. When and how will the Department eliminate this 
backlog?
    Question 5c. How will US-VISIT mitigate potential vulnerabilities 
resulting from not reviewing these records?
    Answer. The U.S. Visitor and Immigrant Status Indicator Technology 
Program (US-VISIT) is directed by Congress in the 2009 US-VISIT 
reprogramming request with eliminating 50 percent of the current 
backlog by the end of fiscal year 2010. There are currently 753,000 
unreviewed records, not including possible future overstay records 
identified in fiscal year 2010.
    In the past, US-VISIT did not validate the records of individuals 
who did not meet U.S. Immigration and Customs Enforcement (ICE) 
parameters for overstay records of interest based on National security 
and intelligence criteria (nonpriority records). This significantly 
increased the size of the backlog.
    To reduce the backlog, US-VISIT hired additional analysts for 
manual vetting and will perform additional automated validation to 
review all overstay records, including those of people from nonpriority 
countries of interest. As of April 9, 2010:
  <bullet> US-VISIT has vetted approximately 247,000 of the previously 
        unreviewed records (48 percent of the stated goal of 500,000 
        records for fiscal year 2010), including regular automated, 
        manual, and batch closures of records.
  <bullet> US-VISIT has hired an additional 69 contractor analysts, 
        currently in various stages of the clearance process, to review 
        overstay records.
  <bullet> US-VISIT will continue with automated, manual, and batch 
        closures of records throughout fiscal year 2010.
  <bullet> US-VISIT remains current (no backlog) in reviewing priority 
        potential overstay violators, including those with visas and 
        Visa Waiver Program nationals.
    Question 6a. The Inspector General testified that DHS does not have 
a master schedule for tracking the work that needs to be accomplished 
to deliver an exit solution.
    Has the Department made progress toward creation of a master 
schedule?
    Question 6b. Who is responsible for this effort and when will a 
master schedule be finished?
    Question 6c. Will you commit to providing this schedule to the 
committee once it is finalized?
    Answer. Once decisions for National deployment are made, U.S. 
Visitor and Immigrant Status Indicator Technology Program (US-VISIT) 
will develop and maintain an integrated master schedule aligned with 
the U.S. Government Accountability Office's delineated best practices 
that will capture the sequencing and timing of the activities and 
events necessary to meet the requirement of this project in a timely 
and cost-effective manner.
    The Department will provide approved final schedules to the 
appropriate Congressional committees.
 Question Submitted by Honorable Gus M. Bilirakis of Florida for Rand 
 Beers, Under Secretary, National Protection and Programs Directorate, 
                    Department of Homeland Security
    Question 1a. In your testimony on terrorist travel before the 
Senate Committee on Homeland Security and Governmental Affairs last 
December you highlighted the success of the Coast Guard's Biometrics at 
Sea program used off the coasts of Florida and Puerto Rico, of which I 
have been a strong proponent.
    Are there plans to expand the use of this very effective program 
beyond the Coast Guard's current use to additional areas or for use by 
other DHS components?
    Question 1b. Can this technology be leveraged to enhance our 
biometric exit screening capabilities?
    Answer. The Coast Guard has recently expanded its biometric 
capability to include the biometric verification of crew members on 
vessels carrying Liquefied Natural Gas into the ports of Boston, MA, 
and Sabine, TX.
    The Coast Guard is also studying the use of biometrics to support 
Counterterrorism, Counterdrug, and Maritime Border Security missions.
    The Coast Guard Biometric at Sea System (BASS) cannot be used for 
biometric exit screening because it is currently limited to the 
collection of two fingerprints and a non-searchable photo. The Coast 
Guard is working with CBP, US-VISIT, and other DHS components on a 
single DHS capability solution to provide 10-print collection and 
potential multi-modal capabilities.
   Question Submitted by Honorable Paul C. Broun of Georgia for Rand 
 Beers, Under Secretary, National Protection and Programs Directorate, 
                    Department of Homeland Security
    Question. Would you each share your opinion of the impact that 
discussions in this country about providing amnesty for those here 
illegally, many of whom are visa overstays, and enabling unauthorized 
aliens to work legally in the United States, has had and will have on 
visa overstays?
    Answer. The experience of immigration enforcement officials in the 
field has shown that many nonimmigrant aliens who overstay their 
authorized period of admission to the United States do so because they 
hope to eventually adjust their status to that of a lawful admitted 
permanent resident. For example, current law allows nonimmigrant 
aliens, even those who overstay their visas, to adjust their status 
through marriage to a United States citizen. Similarly, the prospect of 
being able to adjust status through legalization cannot be discounted 
as an influencing factor for an alien considering overstaying a visa, 
or of entering the United States with the intention of remaining 
unlawful.
    Legalization would not provide a pathway to employment 
authorization or legal status for future visa overstays who go ``out of 
status'' after a hypothetical legislation was introduced and enacted. 
Therefore, in the future, those who overstay may fraudulently attempt 
to adopt the identity of an alien who was ``out of status'' and 
therefore eligible for legalization. Fortunately, such identity fraud 
will be made more difficult by DHS systems that capture the biometrics 
of nonimmigrant visitors. Furthermore, visa overstays lack the required 
documents to work legally in the United States. Legalization of those 
who are currently in the United States illegally would not affect 
future visa overstays, who would still lack valid work authorization.
 Questions Submitted by Chairman Bennie G. Thompson of Mississippi for 
   John T. Morton, Assistant Secretary, U.S. Immigration and Customs 
              Enforcement, Department of Homeland Security
    Question 1. Provide the names of all contractors providing services 
to the ICE Compliance Enforcement Unit. Specify the total value of the 
contract, the term of the contract, the scope of work, and the 
approximate number of Full Time Equivalents associated with each 
contract.
    Answer. The analysis and consultation contracts are listed below.
STATUS VIOLATOR ANALYSIS AND LEAD GENERATION TEAM CONTRACT
Company Name.--SRA, International, Inc.
Contract Number.--HSCENV-08-C-00002.
Term on Contract.--January 1, 2008-December 31, 2010.
Cost.--$17,514,386.
Number of Analysts.--42.
Full Time Equivalents Associated.--58.

    This contract is for the analysis of initial leads received by the 
Compliance Enforcement Unit (CEU). This contract includes the 
capability to act in a surge capacity as National security concerns 
arise.
PROGRAM MANAGEMENT AND ANALYTICAL SUPPORT
Company Name.--Booz Allen Hamilton.
Contract Number.--HSCENV-08-F-00207.
Term of Contract.--September 30, 2008-September 29, 2013.
Cost.--$3,264,003.38.
Number of Consultants.--3.
Full Time Equivalents Associated.--4.

    This contract is for consulting services. This contract supports 
the CEU's school fraud program/major criminal cases as well as data and 
analytical support for field agents, subject matter expertise in 
support of Student and Exchange Visitor Information System (SEVIS) 
related activities, program assessments, process analysis, planning and 
strategy, and assistance to agency initiatives.
    Question 2. How does the Department prioritize investigation and 
enforcement of visa overstays?
    Answer. U.S. Immigration and Customs Enforcement (ICE) prioritizes 
visa overstay cases for investigation and enforcement by giving 
priority to violators who pose the greatest threat to National 
security. ICE uses intelligence-based criteria developed in close 
consultation with the intelligence and law enforcement communities. ICE 
assembles the Compliance Enforcement Advisory Panel (CEAP) three times 
a year to ensure that ICE uses the latest threat intelligence to target 
nonimmigrant overstays and status violators who pose the highest risks 
to National security.
    Question 3a. The Department does not request funding for the ICE 
Compliance Enforcement Unit in the fiscal year 2010 or fiscal year 2011 
budget.
    Why does the budget fail to seek funding for this unit in the 
fiscal year 2010 and fiscal year 2011 request?
    Question 3b. Does ICE need additional funding or personnel to 
support this unit's activities?
    Answer. ICE investigations conducted through the Compliance 
Enforcement Unit (CEU) related to Student and Exchange Visitor 
Information System (SEVIS) are funded by the Student and Exchange 
Visitor Information Program (SEVP) fee collections. The anticipated 
expansion in fiscal year 2010 and fiscal year 2011 will be funded 
through the SEVP fee collections as it relates to increased monitoring 
of SEVIS. Twenty-one agents have been funded through SEVP in fiscal 
year 2010, and we expect to fund 78 additional agents in fiscal year 
2011.
    At this time, ICE CEU does not anticipate requiring additional 
funding or personnel to support compliance enforcement activities.
    Question 4. In 2005, the Inspector General issued a report finding 
that: (1) ICE received inaccurate leads; (2) was unable to keep pace 
with the large volume of lead referrals; and (3) did not complete leads 
in a timely manner.
    What actions has ICE taken since 2005 to address the IG's findings?
    Answer. The actions ICE has taken to address the IG's findings have 
led the IG to close all four of its original recommendations for the 
Compliance Enforcement Unit (CEU). To address inaccurate leads, CEU 
established new business processes with all of its partners to focus 
investigative resources on a smaller set of high-quality records, 
thereby reducing the number of non-actionable leads. These processes 
include access to Department of State data systems, which allow visa 
revocations to be rapidly referred to ICE field offices for 
investigation. This access also enables CEU to correct data errors in 
the Student and Exchange Visitor Information System (SEVIS), enabling 
CEU to identify individuals who are no longer residing in the country. 
Additionally, the US-VISIT Program office is retrieving additional 
departure records not found in the Arrival and Departure Information 
System (the entry-exit component of US-VISIT) to ensure that all US-
VISIT overstay records forwarded to CEU are thoroughly researched 
through all available entry-exit databases.
    To address CEU's ability to keep pace with lead referrals and 
complete leads in a timely manner, CEU has established prioritization 
levels for leads and has adjusted staffing levels to combat both pace 
and quantity of leads. The CEU continuously refines how it prioritizes 
leads to ensure that it investigates those that pose the greatest 
potential threat to National security and public safety. Additionally, 
CEU routinely makes staffing adjustments to address increased workloads 
by adding additional research analysts.
    Question 5a. You testify that we should expand the Nation's 
enforcement efforts concerning overstays and other status violations.
    How can DHS enhance its enforcement efforts?
    Question 5b. What additional authorities or resources does DHS need 
to facilitate this expansion?
    Answer. U.S. Immigration and Customs Enforcement (ICE) is exploring 
how to better focus its programs that enforce nonimmigrant overstays 
and status violators and other interior immigration violations. As ICE 
identifies ways to improve its enforcement strategies concerning 
overstays and status violators, we look forward to working with the 
committee if it is determined that additional authorities or resources 
are needed.
    Question 6a. According to the IG's 2005 report, investigations were 
often delayed because ICE agents had competing demands on their time, 
such as assignments to help other law enforcement agencies or other 
investigative priorities.
    How common are these delays today?
    Question 6b. What management controls are in place to ensure that 
visa overstay investigations are not delayed due to other 
investigations or assignments that compete for agents' time?
    Answer. The IG has closed all four of its original recommendations 
for the Compliance Enforcement Unit (CEU).
    ICE ensures compliance enforcement investigations are completed in 
a timely fashion through a variety of oversight techniques. Primarily, 
ICE routinely analyzes the total number of hours investigators spend 
fact-finding in connection to visa overstays. If the totals are 
deficient, corrective measures are implemented to remind field offices 
of the importance of these cases. More specifically, ICE reviews 
compliance enforcement investigations that have been in the field and 
active for more than 90 days. These cases are identified and discussed 
with the field investigators to determine the status of the cases and 
to reinforce the urgency of completing them.
 Question Submitted by Honorable Paul C. Broun of Georgia for John T. 
Morton, Assistant Secretary, U.S. Immigration and Customs Enforcement, 
                    Department of Homeland Security
    Question. Would you each share your opinion of the impact that 
discussions in this country about providing amnesty for those here 
illegally, many of whom are visa overstays, and enabling unauthorized 
aliens to work legally in the United States, has had and will have on 
visa overstays?
    Answer. The experience of immigration enforcement officials in the 
field has shown that many nonimmigrant aliens who overstay their 
authorized period of admission to the United States do so because they 
hope to eventually adjust their status to that of a lawful admitted 
permanent resident. For example, current law allows nonimmigrant 
aliens, even those who overstay their visas, to adjust their status 
through marriage to a United States citizen. Similarly, the prospect of 
being able to adjust status through legalization cannot be discounted 
as an influencing factor for an alien considering overstaying a visa, 
or of entering the United States with the intention of remaining 
unlawful.
    Legalization would not provide a pathway to employment 
authorization or legal status for future visa overstays who go ``out of 
status'' after a hypothetical legislation was introduced and enacted. 
Therefore, in the future, those who overstay may fraudulently attempt 
to adopt the identity of an alien who was ``out of status'' and 
therefore eligible for legalization. Fortunately, such identity fraud 
will be made more difficult by DHS systems that capture the biometrics 
of nonimmigrant visitors. Furthermore, visa overstays lack the required 
documents to work legally in the United States. Legalization of those 
who are currently in the United States illegally would not affect 
future visa overstays, who would still lack valid work authorization.
 Questions Submitted by Chairman Bennie G. Thompson of Mississippi for 
 Richard L. Skinner, Inspector General, Department of Homeland Security
    Question 1. Your 2005 report on ICE overstay enforcement found that 
until the exit portion of US-VISIT is fully implemented, ICE will 
continue to waste resources investigating people who have already left 
the country. ICE spent $68 million in fiscal year 2009 on compliance 
enforcement. In the absence of a full implementation of the entry and 
exit portions of US-VISIT, how can the Department limit the resource 
drain caused by pursuing these false leads?
    Answer. Since we published our report in 2005, U.S. Immigrations 
and Customs Enforcement and the National Planning and Prepared 
Directorate have reported enhancements to NSEERS, US-VISIT, and the 
SEVIS data systems. Therefore, DHS can now do a better job of targeting 
overstays and spend less time on pursuing false leads. The problem now, 
however, is ICE does not have sufficient resources to pursue these new, 
and more reliable leads.
    Question 2a. ICE relies on several data systems to develop 
investigative leads on overstays (NSEERS, US-VISIT, and SEVIS).
    How useful is the information contained in these databases?
    Question 2b. What steps should DHS take to improve these data 
systems or identify other sources of viable leads?
    Answer. We reaffirm ICE's belief that the information in these 
systems is very useful. To improve the utility of this information, DHS 
must develop additional techniques or processes to integrate and match 
this data with other databases such as the Treasury Enforcement 
Communications Systems (TECS), Terrorists Identities Datamart 
Environment (TIDE), airline manifests, and the Terrorist Screening 
Database, to get a better picture of those who may be overstays and 
among them, identify those who might pose the greatest threats to our 
National security. It is our understanding that this is something that 
DHS is working on doing, but, since we have not reviewed these efforts, 
we cannot comment on their success.
Question Submitted by Honorable Paul C. Broun of Georgia for Richard L. 
      Skinner, Inspector General, Department of Homeland Security
    Question. Would you each share your opinion of the impact that 
discussions in this country about providing amnesty for those here 
illegally, many of whom are visa overstays, and enabling unauthorized 
aliens to work legally in the United States, has had and will have on 
visa overstays?
    Answer. The focus of our most recent Immigration and Customs 
Enforcement (ICE) audit was to determine whether its information 
technology (IT) modernization approach adequately addressed strategic 
planning, implementation, and management of technology. As such, the 
audit did not examine the utility of specific IT systems or the data 
maintained within these systems. However, we found that ICE had 
improved its IT strategic planning, oversight of IT spending, and 
processes for IT life cycle management. However, ICE is still 
challenged to prepare necessary documentation and to review IT projects 
mainly due to staffing shortages. We recommended that ICE finalize its 
IT Strategic Plan; develop an Office of the Chief Information Officer 
staffing plan; establish an agency-wide IT budget process; and 
establish a formal process for IT policy development, approval, and 
dissemination. Once these recommendations have been properly addressed, 
ICE will be in a better position to manage its IT modernization effort 
and to improve understanding of how its existing systems and data 
contained within them will be able to support effectively its 
immigration and customs enforcement goals.
  Question Submitted by Honorable Paul C. Broun of Georgia for Edward 
           Alden, Senior Fellow, Council on Foreign Relations
    Question. Would you each share your opinion of the impact that 
discussions in this country about providing amnesty for those here 
illegally, many of whom are visa overstays, and enabling unauthorized 
aliens to work legally in the United States, has had and will have on 
visa overstays?
    Answer. This question raises the important issue of whether, as a 
result of the preliminary discussions that have taken place on an 
immigration bill that would include some form of legalization for 
unauthorized aliens, the United States may:
    (1) Inadvertently be encouraging more people to come here illegally 
        in hopes of benefiting from legalization, or;
    (2) Inadvertently encouraging people to remain here illegally 
        rather than returning home, again in the hopes of benefiting 
        from legalization.
    Let's take each of those issues in turn. On the first issue, there 
has been some good research done into illegal migration flows prior to 
the 1986 Immigration Reform and Control Act (IRCA) legislation which 
included legalization for nearly 3 million people. The only way this 
can be measured is through apprehension data (i.e. the number of 
arrests of illegal crossers at or near the border). This has never been 
a perfect measure, because it does not directly account for those 
missed by the Border Patrol, may count some individuals multiple times, 
and does not take into account the impacts of increased Border Patrol 
presence. It also leaves out the issue of visa overstayers that was the 
subject of the hearing. But it remains the best proxy we have. The 
underlying assumption is that higher apprehension rates mean that more 
individuals are attempting to enter the United States illegally.
    The legislation that became IRCA was first introduced in 1981. Over 
the 5 years until its enactment, there was a huge increase in border 
apprehensions, from 736,000 in fiscal year 1982 to a peak of 1.6 
million in fiscal year 1986, before dropping again to less than 1 
million in 1987 and 1988. This indicates that IRCA may well have become 
an incentive for illegal migration. The picture is complicated because 
Mexico underwent a deep financial and economic crisis in 1982, and 
there is strong, persistent evidence that the economic situation in 
Mexico is directly correlated to rising illegal migration to the United 
States. The legislation also specified that no one who entered the 
United States after January 1, 1982 would be eligible for legalization, 
with the exception of so-called Special Agricultural Workers. But there 
is considerable evidence of document fraud that allowed many who 
entered after 1982 to be included in the legalization.
    This time around, the pattern has been different. President Bush 
introduced the idea of pursuing comprehensive immigration reform in 
January 2004, and Congress took up bills subsequently, but there has 
been no evidence since then of a surge in illegal migrants hoping to 
benefit from a forthcoming legalization. Indeed the opposite has been 
true. The number of apprehensions along the border with Mexico in 
fiscal year 2009 was at the lowest levels since the early 1970s. There 
were 556,000 apprehensions between the ports of entry, about one-third 
of the record 1.7 million apprehensions in 2000. During the first 6 
months of 2010, there were 245,000 apprehensions, which indicates a 
further decline. This is obviously largely a result of the weaker 
economy and more effective border enforcement (about which I'm happy to 
provide further evidence). So if the potential for legalization is 
providing an incentive for illegal migrants--and there is some evidence 
from the 1980s that it does--it has not been sufficient to offset the 
current disincentives.
    The question of whether some visa overstayers or other illegal 
migrants may be staying in the United States in the hope of benefiting 
from an eventual legalization is still harder to address with any 
precision. It is certainly reasonable to assume that, given the 
increase in interior enforcement, most illegal immigrants are aware of 
the heightened danger of detection and removal, or of the possibility 
that they will be identified as unauthorized by an employer and lose 
their job (again, I would be happy to provide further evidence on the 
increase in interior enforcement). Under the circumstances, each would 
make a calculation about the costs of returning home and the risks of 
remaining.
    Again, the overall statistical evidence is that more unauthorized 
immigrants are returning home than ever before. The latest estimate 
from DHS is that the unauthorized immigrant population as of January 
2009 was 10.8 million, down from 11.6 million in January 2008. This was 
the second straight year of decline in the size of the unauthorized 
population after two decades of more or less uninterrupted growth. 
Again, the explanation is some combination of the weaker economy and 
tougher enforcement. Deportations last year totaled 310,000, which is 
roughly double the level of a decade prior. So if the possibility of a 
legalization program may well be an incentive for some visa overstayers 
to remain, on aggregate the evidence is that nonetheless more are 
leaving than at any time in recent years.
    One conclusion that can be drawn here is that it will matter very 
much how any legalization scheme is designed. Most previous legislative 
proposals have been designed so that the only individuals eligible for 
legalization would be those who had already been in the country for 
some specified period prior to the introduction of the legislation. 
That is supposed to eliminate the incentive for people to enter the 
country illegally, or to overstay visas and remain illegally, in the 
hopes of benefiting from legalization. This leaves aside, of course, 
the question of fraud. As in 1986, there will certainly be many people 
who try to claim a presence in the United States prior to whatever 
cutoff date is set by Congress. It is my understanding that DHS is 
currently working to establish a system for verification that will do 
everything possible to minimize such fraud, but this needs to be a 
topic of careful discussion between Congress and the administration 
should such legislation move forward.

                                 <all>

</pre></body></html>
